 Interagency Coordination
Group Of Inspectors General
   For Guam Realignment
       Annual Report




         Section 2835 Of The National Defense
        Authorization Act For Fiscal Year 2010




                   [January 31, 2014]
                      (Public Law 111-84)
On October 28, 2009, President Obama signed Public Law 111-84, “The National Defense Authorization Act
for FY 2010.” Section 2835 of the Act established the Interagency Coordination Group of Inspectors General
for the Guam Realignment with the following duties.



                                             PUBLIC LAW 111-84
             It shall be the duty of the Interagency Coordination Group to conduct, supervise,
             and coordinate audits and investigations of the treatment, handling, and expenditure
             of amounts appropriated or otherwise made available for military construction on
             Guam and of the programs, operations, and contracts carried out utilizing such funds,
             including:

                        (A) the oversight and accounting of the obligation and expenditure of
                            such funds;
                        (B) the monitoring and review of construction activities funded by such
                            funds;
                        (C) the monitoring and review of contracts funded by such funds;
                        (D) the monitoring and review of the transfer of such funds and
                            associated information between and among departments, agencies,
                            and entities of the U.S. and private and nongovernmental entities;
                        (E) the maintenance of records on the use of such funds to facilitate
                            future audits and investigations of the of such funds; and
                        (F) the monitoring and review of the implementation of the Defense
                            Posture Review Initiative relating to the realignment of military
                            installations and the relocation of military personnel on Guam.

             Not later than February 1 of each year, the chairperson of the Interagency Coordination
             Group shall submit to the congressional defense committees, the Secretary of Defense,
             and the Secretary of the Interior a report summarizing, for the preceding calendar year,1
             the activities of the Interagency Coordination Group during such year and the activities
             under programs and operations funded with amounts appropriated or otherwise made
             available for military construction on Guam. Each report shall include, for the year
             covered by the report, a detailed statement of all obligations, expenditures, and revenues
             associated with such construction.




1
    Public Law 113-66, “The National Defense Authorization Act for Fiscal Year 2014,” December 26, 2013, changed the period
    covered by the annual report from calendar year to fiscal year.
                    Message from the Chairperson,
                   Interagency Coordination Group

I am pleased to provide the fifth annual report of the Interagency Coordination Group
of Inspectors General for Guam Realignment. This annual report, as required by
Public Law 111-84, “The National Defense Authorization Act for Fiscal Year 2010,”
October 28, 2009, covers the reporting period from January 1, 2013, through
September 30, 2013.

The Interagency Coordination Group focuses on challenge areas for the realignment,
including operational readiness, quality of life, contract management, contractor
oversight, asset accountability, and financial management. The group considers risks
associated with these challenges when developing oversight initiatives.

Two planning groups support the Interagency Coordination Group: the Interagency
Planning Group, consisting of representatives of our interagency partners, and the
Joint Planning Group, consisting of representatives of the Department of Defense
oversight partners. Both groups are led by Department of Defense Inspector General
staff, which provide briefings, track trends, coordinate audit de-confliction, and present
issues to the Interagency Coordination Group for consideration.

I want to thank those participating as part of the Interagency Coordination Group and
those Federal and Defense agencies supporting this effort. As the group goes forward,
Congress, the Department, and senior leadership throughout the U.S. Government
will use their oversight efforts to minimize the impact on the citizens of Guam,
improve the economy and efficiency of vital programs and operations, and sustain
the readiness of U.S. forces.




                                             Jon T. Rymer
                                             Inspector General




                                                                        Guam Realignment Report
                                                                                January 31, 2014
                                EXECUTIVE SUMMARY
      Public Law 111-84, “The National Defense Authorization Act for Fiscal Year 2010,”
      (NDAA 2010), October 28, 2009, section 2835, designates the Inspector General of the
      Department of Defense as the chairperson of the Interagency Coordination Group of
      Inspectors General for Guam Realignment. The chairperson is required to provide an
      annual report to the congressional defense committees, the Secretary of Defense, and
      the Secretary of the Interior on the activities of the Interagency Coordination Group
      and the programs and operations funded with amounts appropriated or otherwise made
      available for military construction on Guam. This report contains data collected from
      multiple organizations. The Department of Defense Office of Inspector General did not
      independently verify, analyze, or validate the data provided.

      The Defense Posture Review Initiative serves as the framework for the future of U.S. force
      structure in Japan and the U.S. Marine Corps (Marine Corps) realignment to Guam. The
      purpose of the Defense Posture Review Initiative is to develop a common security view;
      to review roles, missions, and capabilities; and to review force posture changes. Included
      in these initiatives are the relocation of Marine Corps personnel to Guam, the return of
      selected bases and facilities to the government of Japan (GOJ), and the consolidation of
      some of the remaining U.S. bases and facilities in Japan. Discussions held October 3, 2013,
      between the U.S. and the GOJ, through the Security Consultative Committee, resulted in
      significant changes to the realignment plan as well as funding. The Joint Guam Program
      Office (JGPO) continues to facilitate, manage, and execute requirements associated with the
      Guam realignment.

      This report identifies the programs and operations funded with appropriated amounts or
      funds otherwise made available for military construction on Guam from January 1, 2013,
      through September 30, 2013.

         •	 DoD obligated approximately $44.5 million and expended approximately
            $137.9 million. Other Federal agencies obligated approximately $9.9 million
            and expended approximately $17.7 million. (Section 1)
         •	 DoD identified 180 projects and programs, totaling approximately $133.9 million,
            with estimated completion costs of approximately $283.1 million. Other Federal
            agencies identified 28 projects and programs, totaling approximately $17.7 million,
            with estimated completion costs of approximately $19.2 million. (Section 2)
         •	 GOJ provided revenues of $114.3 million and earned approximately $1.4 million
            in interest associated with revenues contributed to date. (Section 3)
         •	 DoD identified operating expenses of approximately $19.5 million. Other Federal
            agencies identified operating expenses of approximately $404,600. (Section 4)
         •	 DoD identified a total of 48 contracts, grants, agreements, or other funding
            mechanisms valued at approximately $31.4 million. Other Federal agencies
            identified a total of 15 contracts, grants, agreements, or other funding mechanisms
            valued at approximately $10.2 million. (Section 5)


Guam Realignment Report
January 31, 2014
                                       Table of Contents
Guam Realignment Posture Changes		        					                           1

Efforts of the Interagency Coordination Group 					                        5
	           (Section 2835(e)(1))	


Section 1.	 U.S. Government Obligations and Expenditures Data 		          9
	           (Section 2835(e)(1)(A))


Section 2.	 Project and Program Costs						                              13
	           (Section 2835(e)(1)(B))


Section 3.	 Government of Japan Revenue						                            29
	           (Section 2835(e)(1)(C))


Section 4.	 Operating Expenses								                                   33
	           (Section 2835(e)(1)(D))


Section 5.	 Contracts, Grants, Agreements, or Other Funding		            37
	           Mechanisms Data (Section 2835(e)(1)(E))


Appendix.	Acronyms								                                 		            52
	




                                                      Guam Realignment Report
                                                              January 31, 2014
  U.S. Navy aircraft carrier navigates to the Port of Guam.
  Source: Department of Defense




Guam Realignment Report
January 31, 2014
Guam Realignment Posture Changes
Congressional Actions
On December 26, 2013, the President signed Public Law 113-66, “The National Defense Authorization
Act for Fiscal Year 2014,” (NDAA 2014). Section 2821 of the NDAA 2014 changes the reporting
period from calendar year to fiscal year for the Interagency Coordination Group of Inspector General
for Guam Realignment (ICG) annual report. To reflect this change, 1st quarter FY 2013 data (October
2012 through December 2012) will be omitted to prevent double reporting from the previous report.
This report includes fiscal year data for a 9-month partial year (January 2013 through September 2013).
Successive reports will address the full fiscal year, October 1 through September 30.

Section 2822 of the NDAA 2014 prohibits obligations or expenditures for the Guam realignment,
including funds provided by the GOJ until the Secretary of Defense submits to the congressional
defense committees the following:

      •	 the report required by section 1068(c) of the National Defense Authorization Act for
         Fiscal Year 2013;
      •	 master plans for the construction of facilities and infrastructure to execute the Marine Corps
         distributed lay-down on Guam, including a detailed description of costs and the schedule
         for the construction; and
      •	 a plan coordinated by all pertinent Federal agencies detailing descriptions of work, costs,
         and a schedule for completion of construction, improvements, and repairs to the nonmilitary
         utilities, facilities, and infrastructure on Guam affected by the realignment of forces.

Four exceptions allow the Secretary of Defense to expend funds to:

      •	 complete additional analysis or studies required under the National Environmental Policy Act
         of 1969 for proposed actions on Guam;
      •	 initiate planning and design of construction projects on Guam;
      •	 carry out any military construction project for which an authorization of appropriations is
         provided in section 2204; and
      •	 carry out the construction of a utility and site improvement project to support the north ramp
         expansion at Andersen Air Force Base.

Section 2822 also provides restrictions on the development of public infrastructure. Specifically,
if the Secretary of Defense determines that any grant, corporative agreement, transfer of funds to
another Federal agency, or supplemental funds available in fiscal year 2014 under Federal programs
administered by agencies other than DoD, will result in the development of public infrastructure on
Guam, the Secretary may not carry out such unless specifically authorized by law.
 
Section 2822 further requires that the Secretary of Defense:

      •	 assemble an Economic Adjustment Committee to consider assistance, including assistance
         to support public infrastructure requirements, necessary to support the preferred alternative
         for the relocation of Marine Corps forces to Guam;
      •	 submit a report to congressional defense committees describing the results of the Economic
         Adjustment Committee deliberations and containing an implementation plan to support the


                                                                               Guam Realignment Report
                                                1
                                                                                       January 31, 2014
             preferred alternative for the relocation of Marine Corps forces to Guam; and
          •	 provide the report to the congressional defense committees no later than the date of the Record
             of Decision for the relocation of Marine Corps forces to Guam associated with the “Guam and
             Commonwealth of Northern Mariana Islands Military Relocation Supplemental Environmental
             Impact Statement.”


    Security Consultative Committee
    In October 2013, the U.S. and GOJ held a round of Security Consultative Committee talks. Secretary of State,
    John F. Kerry; Secretary of Defense, Charles “Chuck” Hagel; Minister for Foreign Affairs, Fumio Kishida;
    and Minister of Defense, Itsunori Onodera attended the meetings. The Security Consultative Committee
    reaffirmed the indispensable role of the U.S. and Japan in the maintenance of international peace and security
    and reconfirmed the alliance’s commitment to the security of Japan through the full range of U.S. military
    capabilities. In a joint statement, the U.S. Secretaries of State and Defense and Japan’s Ministers for Foreign
    Affairs and Defense stated that they had set forth a strategic vision that reflects shared values of democracy, the
    rule of law, free and open markets, and respect for human rights; and will effectively promote peace, security,
    stability, and economic prosperity in the Asia-Pacific region.

    The Ministers confirmed that the relocation of Marine Corps personnel from Okinawa to locations outside
    of Japan, including Guam, contributes to sustaining the forward presence of U.S. forces and facilitates the
    development of Guam as a strategic hub while also mitigating the impact on Okinawa. Additionally, the
    Ministers:

          •	 announced the signing of a protocol to amend the 2009 Guam International Agreement, which forms
             the basis for the bilateral cooperation necessary to achieve the goals of the relocation.
          •	 noted the significance of Japanese cash contributions to the development of training areas in Guam
             and the Commonwealth of Northern Mariana Islands and directed that consultations on the terms and
             conditions related to the use of these training areas be initiated within this year.
          •	 completed work reflecting the breakdown of costs associated with developing facilities, including
             training areas, and infrastructure in Guam and the Commonwealth of Northern Mariana Islands
             supporting the relocation of U.S. Marines.
          •	 reconfirmed the relocation plan described in the 2012 Security Consultative Committee Joint
             Statement. Under the plan, Marine Corps units are required to begin relocation from Okinawa to
             Guam in the first half of the 2020s. The Ministers confirmed that this plan’s progress depends on
             various factors, such as measures taken by the two governments to secure appropriate funding. This
             plan also facilitates progress in implementing the April 2013 Consolidation Plan for Facilities and
             Areas in Okinawa.




Guam Realignment Report
January 31, 2014                                           2
    Guam Realignment Report
3
            January 31, 2014
  Andersen Air Force Base, Guam, is photographed from an F-16D Fighting Falcon during Exercise Cope North.
  Source: Department of Defense




Guam Realignment Report
January 31, 2014
Efforts of the Interagency
Coordination Group




                                               Section 2835(e)(1)
                                               	




                             Guam Realignment Report
                 5
                                     January 31, 2014
                      Efforts of the Interagency Coordination Group of
                      Inspectors General for Guam Realignment

                      Public Law 111-84, “The National Defense Authorization Act for Fiscal Year 2010,” (NDAA 2010),
                      October 28, 2009, section 2835, designates the Inspector General of the DoD as the chairperson of the
                      ICG. Additionally, the Inspector General of the Department of the Interior (DOI) is a required member.

                      The ICG is responsible for conducting, supervising, and coordinating oversight activities to monitor
                      the use of funding for the Guam realignment. To assist with developing a strategy for these oversight
                      activities, the ICG chairperson established the Guam Interagency Planning Group.

                      ICG OVERSIGHT DUTIES
                      Section 2835 of the NDAA 2010 requires the ICG to provide objective supervision of audits and
                      investigations relating to the programs and operations funded with amounts appropriated or otherwise
                      made available for military construction on Guam. Specifically, the ICG oversight duties are to conduct,
                      supervise, and coordinate audits and investigations of the treatment, handling, and expenditure of
                      amounts appropriated for military construction on Guam.

                      AUDIT REPORTS COMPLETED JANUARY 1 THROUGH
                      SEPTEMBER 30, 2013
                      From January 1, 2013, through September 30, 2013, members of the ICG completed one audit related
                      to the realignment of forces to Guam. That audit was completed by the Department of Transportation
                      (DOT) Office of Inspector General (OIG) and focused on port infrastructure development efforts.

                      The DOT OIG issued Report No. CR-2013-117, “MARAD Has Taken Steps To Develop a Port
                      Infrastructure Development Program but Is Challenged in Managing Its Current Port Projects,” on
                      August 2, 2013. The audit objective was to evaluate the Agency’s execution of its port infrastructure
                      development responsibilities. Specifically, DOT OIG evaluated the Maritime Administration’s oversight
                      and risk management of port infrastructure development projects and oversight of port infrastructure
                      projects’ contract planning and administration. The DOT OIG found that the Maritime Administration
                      did not establish effective oversight mechanisms when it initiated its port infrastructure development
                      responsibilities. In the absence of clear statutory guidance, the Maritime Administration did not:

                            •	 adequately define its port project oversight responsibilities or provide guidance to contractors
                               for developing program management plans;
                            •	 establish a sound risk management process consistent with industry best practices; or
                            •	 have a process to systematically store, maintain, and track project progress and funds.

                      DOT OIG provided nine recommendations to the Maritime Administrator. The recommendations
                      included development of guidance for port management plans, definition and documentation of
Section 2835(e)(1)




                      Maritime Administrator responsibilities, and development of risk management policies and procedures.


                      ON GOING OR PLANNED AUDITS
                      The DOI OIG is conducting two evaluations in the following areas: (1) the Guam Memorial Hospital
                      and (2) the Guam Department of Revenue and Taxation/Gross Receipts Tax. The objectives for the
                      Guam Memorial Hospital evaluation are to assess the hospital’s ability to meet the medical care
                      needs of the citizens of Guam; prepare for the increase in population from the military relocation; and
	




                     Guam Realignment Report
                                                                              6
                     January 31, 2014
                                                             Efforts of the Interagency Coordination Group of
                                                                    Inspectors General for Guam Realignment

identify whether opportunities exist to enhance medical care services. The objective for the
Guam Department of Revenue and Taxation evaluation is to determine if the Department of Revenue
and Taxation has a process in place to identify and collect Contractors’ Gross Receipts Tax and Business
Income Tax.

INVESTIGATIONS
From January 1, 2013, through September 30, 2013, the Defense Criminal Investigative Service and
the Naval Criminal Investigative Service engaged in investigations related to programs and operations
funded with amounts appropriated or otherwise made available for military realignment construction on
Guam, as shown in Table 1.

        Table 1. Guam Military Realignment Investigative Working Group Investigations
                                                                  Type of              Status of
                        Investigative Agency                   Investigation         Investigation
              Defense Criminal Investigative Service       False Statement/Claims        Open
              Naval Criminal Investigative Service          Product Substitution         Open

             Source: Defense Criminal Investigative Service’s response to DoD OIG data call, 1/21/2014.




                                                                                                                  Section 2835(e)(1)
                                                                                                                  	




                                                                                       Guam Realignment Report
                                                       7
                                                                                               January 31, 2014
  Marine Corps CH-53 helicopters prepare for flight.
  Source: Department of Defense




Guam Realignment Report
January 31, 2014
                                                1
U.S. Government Obligations and
Expenditures Data




                                                 Section 2835(e)(1)(A)
                                                 	




                              Guam Realignment Report
                   9
                                      January 31, 2014
                         Section 1: U.S. Government Obligation and
                         Expenditures Data (Section 2835(e)(1)(A))

                         Public Law 111-84 states that not later than February 1 of each year, the ICG chairperson must report
                         on the programs and operations funded with amounts appropriated or otherwise made available for
                         military construction on Guam. Each report shall include a detailed statement of all obligations and
                         expenditures.

                         U.S. FUNDING FOR REALIGNMENT
                         Construction of new facilities, improvements to existing facilities, and improvements to infrastructure
                         will result from the movement of the Marine Corps forces to Guam. As reported by the Office of the
                         Under Secretary of Defense (Comptroller)/Chief Financial Officer on January 16, 2014, funds were
                         appropriated for a military construction project on March 26, 2013, for approximately $24.5 million at
                         Guam (north ramp parking).

                         DoD OBLIGATIONS AND EXPENDITURES
                         The DoD OIG requested the Under Secretary of Defense (Comptroller/Chief Financial Officer);
                         Assistant Secretary of the Army (Financial Management and Comptroller); Assistant Secretary of
                         the Navy (Financial Management and Comptroller); Assistant Secretary of the Air Force (Financial
                         Management and Comptroller); Director, Defense Finance and Accounting Service; and the Program
                         Resource Director/Chief Financial Officer, Joint Guam Program Office to provide obligation and
                         expenditure data supporting the Marine Corps realignment to Guam. From January 1, 2013, through
                         September 30, 2013, DoD obligated approximately $44.5 million and expended approximately
                         $137.9 million. Table 2 identifies the amounts obligated and expended for each appropriation from
                         January 1, 2013, through September 30, 2013.

                                    Table 2. DoD Obligations and Expenditures Related to the Guam Realignment
                                                  Appropriation                           Obligations           Expenditures
                                   Military Construction, Navy and Marine Corps           $25,788,022             $79,683,069

                                   GOJ                                                      6,788,965              40,239,444

                                   Operation and Maintenance, Marine Corps                 11,971,618              17,999,013

                                    Total                                                 $44,548,605            $137,921,526
                                  Source: Naval Facilities Engineering Command’s response to DoD OIG data call, 12/02/2013 and
                                  Headquarters Marine Corps’ response to DoD OIG data call, 11/07/2013.
Section 2835(e)(1)(A)
	




                        Guam Realignment Report
                                                                                     10
                        January 31, 2014
                                                                       Section 1: U.S. Government Obligation and
                                                                        Expenditures Data (Section 2835(e)(1)(A))



OTHER GOVERNMENT AGENCIES
From January 1, 2013, through September 30, 2013, DOT reported obligations of approximately
$9.9 million and expended approximately $17.7 million related to programs and operations funded
with amounts appropriated or otherwise made available for military construction on Guam. Table 3
shows other government agency obligations and expenditures.

                    Table 3. Other Government Agency Obligations and Expenditures
                                    Related to the Guam Realignment
                                Agency               Obligations                Expenditures
                      DOT                            $9,895,942                 $17,696,921

                        Total                        $9,895,942                 $17,696,921
                     Source: DOT’s response to DoD OIG data call, 11/15/2013.




                                                                                                                          Section 2835(e)(1)(A)
                                                                                                                          	




                                                                                               Guam Realignment Report
                                                         11
                                                                                                       January 31, 2014
  U.S. Navy attack submarine in the Port of Guam.
  Source: Department of Defense




Guam Realignment Report
January 31, 2014
                                       2
Project and Program Costs




                                         	 Section 2835(e)(1)(B)




                      Guam Realignment Report
              13
                              January 31, 2014
                              	      Section 2835(e)(1)(B)

                          Section 2. Project and Program Costs (Section 2835(e)(1)(B))
                          Public Law 111-84 requires the ICG annual report to contain a detailed statement on the costs incurred to date and costs estimated to
                          complete each DoD or DOI military construction project or program. The report must identify all projects and programs associated with the
                          realignment of military installations and the relocation of military personnel to Guam.




January 31, 2014
                          DoD AND GOJ PROJECT AND PROGRAM LIST
                          From January 1, 2013, through September 30, 2013, DoD identified 180 projects and programs, totaling approximately $133.9 million,
                                                                                                                                                                                                       (Section 2835(e)(1)(B))




                          with estimated completion costs of $283.1 million. Specifically, Naval Facilities Engineering Command, Pacific reported 48 projects and




Guam Realignment Report
                          Headquarters Marine Corps reported 132 projects that were directly associated with the realignment of military installations and military
                          personnel to Guam. The Naval Facilities Engineering Command, Pacific projects incurred costs of approximately $119.9 million with
                          estimated completion costs of approximately $240.8 million. The Headquarters Marine Corps projects incurred costs of approximately
                          $13.9 million with estimated completion costs of approximately $42.2 million. Table 4 identifies the DoD and GOJ projects and programs,
                                                                                                                                                                                                       Section 2: Project and Program Costs




                          and their associated costs.21

                                                                             Table 4. Costs for DoD and GOJ Projects and Programs
                                                                                                                                                                Cost Incurred
                                                                                                                                             Cost Incurred to    January 1 -
                                                                                                                       Total Estimated       Date (US or GOJ    September 30,       Estimated Costs




      14
                                               Project                        Description/Scope          Start Date          Cost                Funds)             2013              to Complete
                                                                                            Naval Facilities Engineering Command
                              J001, GOJ Construction; Utilities & Site    UTIL & SITE IMPRV, PH 1        8/11/2011         $169,000,000.00     $63,895,074.72   $33,364,490.01      $105,104,925.28
                              Improv, PH 1 (Apra Harbor)                  (APRA HARBOR)
                              J001A, GoJ Construction; Utilities & Site   UTIL & SITE IMPRV, PH 1        8/11/2011           27,000,000.00      14,831,988.65      6,815,965.81        12,168,011.35
                              Improv, PH 1 (AAFB)                         (AAFB)
                              J006, GOJ Design, Apra Medical Clinic       APRA MEDICAL CLINIC            2/18/2010            2,977,922.68       2,794,573.77                   -        183,348.91
                                                                          (APR HARBOR)
                              J007, GOJ Design, Waterfront                WATERFRONT                     1/11/2010            2,047,463.24       1,972,746.26                   -         74,716.98
                              Headquarters Bldg                           HEADQUARTERS
                                                                          BUILDING
                              J008, GOJ Design, Fire Station              FIRE STATION                   1/11/2010            1,808,419.73         985,817.34        59,041.45           822,602.39
                                                                          (FINEGAYAN)
                              J010, GOJ Design, BEQ Complex               BEQ COMPLEX                    2/27/2010            3,423,815.21       3,025,071.85           (53.07)          398,743.36
                              100; Construction; North Ramp Utilities     DPRI-NORTH RAMP                 4/6/2011           21,000,000.00      14,974,608.23      8,838,609.96         6,025,391.77
                                                                          UTILITIES, INC 1 (AAFB)
                              1003; Construction; Military Working Dog    MILITARY WORKING DOG           9/29/2010           13,000,000.00       6,600,674.88      3,071,687.51         6,399,325.12
                                                                          RELOC, APRA HRBR




                          2
                              The table includes negative numbers listed in parenthesis, which represent de-obligations.
                                                                                                                                                Cost Incurred
                                                                                                                             Cost Incurred to    January 1 -
                                                                                                          Total Estimated    Date (US or GOJ    September 30,       Estimated Costs
                                           Project                     Description/Scope     Start Date         Cost             Funds)             2013              to Complete
                           1006: Construction: Defense Access      DAR/DPRI-DEFENSE          7/13/2011       7,825,000.00          438,866.62       170,420.09          7,386,133.38
                           Road Improvements (Agana)               ACCESS ROAD
                                                                   IMPROVEMENTS (AGANA)
                           101; Construction; North Ramp Parking   DPRI-NORTH RAMP            4/6/2011      88,797,000.00       71,249,735.90     31,557,240.72        17,547,264.10
                                                                   PARKING, INC 1 (AAFB)
                           101A: Construction; North Ramp          DPRI NORTH RAMP            8/7/2013      24,458,000.00                   -                   -      24,458,000.00
                           Parking Inc 2                           PARKING, INC 2 (AAFG)
                           204; Construction, Apra Harbor Wharf    APRA HARBOR WHARF         9/30/2010     125,000,000.00       98,967,197.77     30,109,935.23        26,032,802.23
                           Improvement                             IMPRV, INC 1 OF 2
                           204A: DPRI APRA Harbor                  DPRI APRA HARBOR          11/27/2012     39,104,634.00        5,239,649.74      5,239,649.74        33,864,984.26
                           Wharf Improvement 2                     WHARF
                                                                   IMPROVEMENT 2
                           010; Design, PDM IV MARINE CORPS        PDM IV MARINE CORPS       4/15/2008        2,236,411.78       2,236,411.78                   -                  -
                           MILCON                                  MILCON
                           100; Design, DPRI-NORTH RAMP            DPRI-NORTH RAMP           12/3/2009       1,221,699.65        1,221,699.65                   -                  -




      15
                           UTILITIES, INC 1 (AAFB)                 UTILITIES, INC 1 (AAFB)
                           1003; Design, DPRI-MILITARY             DPRI-MILITARY WORKING     10/25/2008      1,539,323.09        1,539,323.09                   -                  -
                           WORKING DOG RELOC, APRA HRBR            DOG RELOC, APRA HRBR
                           100A; Design, North Ramp Utilities      DPRI-NORTH RAMP           1/15/2011         743,826.97          743,826.97              7.00                    -
                                                                   UTILITIES INC 2 OF 2
                           101; Design, DPRI-NORTH RAMP            DPRI-NORTH RAMP           12/3/2009       2,189,290.22        2,189,290.22           (78.45)                    -
                           PARKING, INC 1 (AAFB)                   PARKING, INC 1 (AAFB)
                           101A:Design, DPRI-North                 DPRI-NORTH RAMP                             598,397.64          598,397.64       126,795.69                     -
                           Ramp Parking Inc 202                    PARKING, INC 2 OF 2
                           109; Design, DPRI-AIRCRAFT              DPRI-AIRCRAFT             3/14/2009       1,168,800.63          808,888.78       568,801.15           359,911.85
                           MAINTENANCE HANGAR (NORTH               MAINTENANCE HANGAR
                           RAMP)                                   (NORTH RAMP)
                           110; Design, DPRI-SITE PREP AND         DPRI-SITE PREP AND        9/30/2009       6,266,949.08        6,266,949.08                   -                  -
                           UTILITIES, PHASE 1 (FINEGAYAN)          UTILITIES, PHASE 1
                                                                   (FINEGAYAN)
                           111; Design, DPRI-APRA HARBOR           DPRI-APRA HARBOR          11/25/2009      1,251,285.75        1,251,285.75                   -                  -
                           VICTOR WHARF IMPR                       VICTOR WHARF IMPR
                           113; Design, DPRI-FINEGAYAN SITE        DPRI-FINEGAYAN SITE       2/13/2010         491,128.40          491,128.40                   -                  -
                           PREP AND UTILITIES - PHASE 2            PREP AND UTILITIES -
                                                                   PHASE 2
                                                                                                                                                                                       Section 2: Project and Program Costs
                                                                                                                                                                                                     (Section 2835(e)(1)(B))




        January 31, 2014
Guam Realignment Report
                           	      Section 2835(e)(1)(B)
                          	      Section 2835(e)(1)(B)

                                                                                                                                               Cost Incurred
                                                                                                                            Cost Incurred to    January 1 -
                                                                                                          Total Estimated   Date (US or GOJ    September 30,       Estimated Costs
                                          Project                    Description/Scope       Start Date         Cost            Funds)             2013              to Complete
                          2006; Design, DPRI- Apra Harbor Embark DPRI-APRA HARBOR            1/30/2010         509,002.54         509,002.54                   -                 -
                          Facilities (Agana)                     EMBARK FACILTIES




January 31, 2014
                                                                 (AGANA)
                          2014;Base Communications Center         DPRI-BASE                  11/9/2010         288,633.45         288,633.45                   -                 -
                                                                  COMMUNICATIONS
                                                                                                                                                                                     (Section 2835(e)(1)(B))




                                                                  CENTER




Guam Realignment Report
                          204; Design, DPRI-APRA HARBOR           DPRI-APRA HARBOR           2/14/2009       6,395,660.96       6,395,660.96                   -                 -
                          WHARF IMPRV, INC 1 OF 2                 WHARF IMPRV, INC 1 OF 2
                          2048; Design, DPRI-Finegayan Water      DPRI-FINEGAYAN WATER       1/28/2011         677,391.86         677,391.86                   -                 -
                          Utilities                               UTILITIES
                                                                                                                                                                                     Section 2: Project and Program Costs




                          205; Design, DPRI-Defense Access Road   DPRI-DEFENSE ACCESS        6/27/2011          10,272.11          10,272.11                   -                 -
                          Improvements (Agana)                    ROAD IMPROVEMENTS
                                                                  (AGANA)
                          598; Design, DPRI-Training Land         DPRI-TRAINING LAND         3/28/2011          79,697.92          79,697.92                   -                 -
                          Acquisition (Rt 15 Andy South)          ACQUISITION (RT 15)
                                                                  (ANDY SOUTH)
                          599; Design, DPRI-COMBAT LOGISTIC       DPRI-COMBAT LOGISTIC       12/19/2009        408,851.66         408,851.66                   -                 -
                          COMPANY FACILITIES (FINEGAYAN           COMPANY FACILITIES




      16
                                                                  (FINEGAYAN)
                          600; Design, DPRI DAR Road              DPRI-DAR ROAD              6/27/2011           6,486.91           6,486.91                   -                 -
                          Realignment Rt 15                       REALIGNMENT, ROUTE 15
                          601; Design, DPRI-AVIATION              DPRI-AVIATION FACILITIES   12/19/2009        272,296.30         272,296.30                   -                 -
                          FACILITIES AT NORTH RAMP                AT NORTH RAMP
                          602; Design, DPRI-III MARINE            DPRI-III MARINE            2/13/2010         466,909.48         466,909.48                   -                 -
                          EXPEDITIONARY FORCE HQ                  EXPEDITIONARY FORCE
                          (FINEGAYAN)                             HQ (FINEGAYAN)
                          603; Design, DPRI-FINEGAYAN SITE        DPRI-FINEGAYAN SITE        1/30/2010         104,839.78         104,839.78                   -                 -
                          PREP AND UTILITIES - PH 3               PREP AND UTILITIES - PH
                                                                  3
                          604; Design, DPRI-OPERATIONS AND        DPRI-OPERATIONS AND        2/13/2010         552,138.33         552,138.33                   -                 -
                          ARMORY FACILITIES (FINEGAYAN)           ARMORY FACILITIES
                                                                  (FINEGAYAN)
                          606; Design, DPRI-CORROSION             DPRI-CORROSION             12/19/2009        405,172.41         405,172.41                   -                 -
                          CONTROL FACILITY (FINEGAYAN)            CONTROL FACILITY
                                                                  (FINEGAYAN)
                          700; Design, DPRI-INDOOR                DPRI-INDOOR                10/27/2010         79,598.62          79,598.62                   -                 -
                          MULTIPURPOSE RANGE                      MULTIPURPOSE RANGE
                                                                                                                                                    Cost Incurred
                                                                                                                                 Cost Incurred to    January 1 -
                                                                                                               Total Estimated   Date (US or GOJ    September 30,       Estimated Costs
                                           Project                     Description/Scope          Start Date         Cost            Funds)             2013              to Complete
                           705;Design, DPRI-GAS CHAMBER            DPRI-GAS CHAMBER               10/27/2010         34,287.07          34,287.07                   -                 -
                           710;Design, DPRI-ENGINEERING PIT        DPRI-ENGINEERING PIT           10/27/2010         55,917.95          55,917.95                   -                 -
                           J001X; Design, UTILITIES AND SITE       UTILITIES AND SITE             2/14/2009       8,543,939.61       8,543,939.61                   -                 -
                           IMPROVEMENTS - PH 1                     IMPROVEMENTS - PH 1
                           J006X Design, Apra Medical Clinic       APRA MEDICAL CLINIC            4/11/2009         940,472.72         940,472.72                   -                 -
                                                                   (APR HARBOR)
                           J007X Design, Waterfront Headquarters   WATERFRONT                     4/11/2009         899,842.04         899,842.04                   -                 -
                           Bldg                                    HEADQUARTERS
                                                                   BUILDING
                           J008X Design, Fire Station              FIRE STATION                   4/25/2009         865,657.55         865,657.55                   -                 -
                                                                   (FINEGAYAN)
                           J011; Design, BASE ADMINISTRATIVE       BASE ADMINISTRATIVE            4/10/2010         903,875.58         903,875.58                   -                 -
                           BUILDING (FINEGAYAN)                    BUILDING (FINEGAYAN)
                           J012; Design, MARINE LOGISTICS          MARINE LOGISTICS               4/10/2010         918,439.22         918,439.22                   -                 -
                           GROUP (MLG) HQ BUILDING                 GROUP (MLG) HQ




     17
                                                                   BUILDING
                           J015; Design, ENLISTED DINING           ENLISTED DINING                4/10/2010         863,297.34         863,297.34                   -                 -
                           FACILITY                                FACILITY
                           J016; Design, BACHELORS ENLISTED        BACHELORS ENLISTED             4/10/2010         748,297.93         748,297.93                   -                 -
                           QUARTERS COMPLEX                        QUARTERS COMPLEX
                           J017; Design, UTILITIES AND SITE        UTILITIES AND SITE              7/4/2009       6,416,763.06       6,416,763.06                   -                 -
                           IMPROVEMENTS - PH 2                     IMPROVEMENTS - PH 2


                               Subtotal                                                                        $574,597,110.47   $333,770,949.49    $119,922,512.84     $240,826,160.98
                                                                                             Headquarters Marine Corps
                           M2002113WR00013                         FY13 NAVFAC In-House           10/1/2012          38,060.00          38,060.00         23,310.00                   -
                                                                   Labor - Biosecurity Program
                                                                   Management
                           M2002113WR00014                         FY13 NAVFAC In-House           10/1/2012           5,000.00           5,000.00          2,500.00                   -
                                                                   Labor - Fruit Bat and Crow
                                                                   Recovery Action on Rota
                           M2002113WR00015                         FY13 NAVFAC In-House           10/1/2012           8,300.00           6,900.00          4,150.00            1,400.00
                                                                   Labor - Guam Historical
                                                                   Preservation Plan
                                                                                                                                                                                          Section 2: Project and Program Costs
                                                                                                                                                                                                        (Section 2835(e)(1)(B))




        January 31, 2014
Guam Realignment Report
                           	       Section 2835(e)(1)(B)
                          	        Section 2835(e)(1)(B)

                                                                                                                                         Cost Incurred
                                                                                                                      Cost Incurred to    January 1 -
                                                                                                    Total Estimated   Date (US or GOJ    September 30,       Estimated Costs
                                         Project               Description/Scope       Start Date         Cost            Funds)             2013              to Complete
                          M2002113WR00017                  FY13 NAVFAC MAR             10/1/2012       1,217,305.00       1,187,305.00       772,878.00            30,000.00
                                                           Coordination & Support




January 31, 2014
                          M2002113WR00019                  FY13 NAVFAC In-House        10/1/2012           5,100.00           5,100.00         5,100.00                    -
                                                           Labor - Guam SHPO
                                                           Reporting
                                                                                                                                                                               (Section 2835(e)(1)(B))




                          M2002113WR00020                  FY13 NAVFAC In-House        10/1/2012          21,360.00          21,360.00        15,010.00                    -




Guam Realignment Report
                                                           Labor - National Register
                                                           Nominations
                          M2002113WR00021                  FY13 NAVFAC In-House        10/1/2012           7,200.00           7,200.00         2,200.00                    -
                                                           Labor - Orote Ecological
                                                           Reserve Area
                                                                                                                                                                               Section 2: Project and Program Costs




                          M2002113WR00029                  FY13 NAVFAC In-House        5/21/2013          52,270.00          52,270.00        52,270.00                    -
                                                           Labor - MCBH Optimization
                                                           Plan
                          M2002113WR00030                  FY13 NAVFAC In-House        5/21/2013          60,800.00          60,800.00        60,800.00                    -
                                                           Labor - Oahu Land Use
                                                           Study
                          M2002113RC00029                  FF&E for Military Working   9/17/2013         143,239.48         143,239.48       143,239.48                    -




      18
                                                           Dog Facility
                          M2002113PO00009                  SPAWAR - MILCON RAD          9/6/2013         140,900.00         140,900.00       140,900.00                    -
                          M2002113MP00044                  POL Synchronization Study   11/13/2013        201,094.00         201,094.00       201,094.00                    -
                          D-0013                           Update to FHWA Guam         6/18/2010          56,586.58          56,586.58                   -                 -
                                                           Build-up Traffic Study
                          D-0014                           Bldg 207/228/155            9/16/2010       4,377,718.40       4,371,669.61       162,673.25             6,048.79
                                                           Renovation Project
                          D-0016                           Comprehensive Base Dev      6/18/2010       1,173,557.70       1,158,280.21                   -         15,277.49
                                                           Study, Andersen AFB
                          E-0004                           Draft EIS                   6/12/2009       3,501,435.40       3,501,061.71                   -            373.69
                          E-0005                           Final EIS Support           3/17/2010       1,932,139.18       1,932,138.00                   -              1.18
                          E-0008                           On-Base Traffic Analysis    8/20/2009         275,262.00         275,262.00                   -                 -
                          E-0009                           Water Study                 5/28/2009          13,080.95          13,080.95                   -                 -
                          E-0011                           Electrical Study            7/23/2009          40,713.00          40,713.00                   -                 -
                          E-0012                           Solid Waste Management      3/17/2010          20,000.00          20,000.00                   -                 -
                                                           Plan (IHS)
                          E-0016                           Natural Resource Study      7/23/2009         367,066.00         367,066.00                   -                 -
                                                                                                                                                  Cost Incurred
                                                                                                                               Cost Incurred to    January 1 -
                                                                                                         Total Estimated       Date (US or GOJ    September 30,       Estimated Costs
                                         Project                Description/Scope           Start Date         Cost                Funds)             2013              to Complete
                           E-0017                           Cultural/ Historical Resource   6/11/2009         292,711.43             292,711.43                   -                  -
                                                            Study
                           E-0025                           CNMI Natural Resource           4/10/2009        7,011,986.00          5,252,445.26           956.17          1,759,540.74
                                                            Survey
                           E-0031                           Administrative Record            8/6/2009       1,131,734.95           1,130,028.31           213.36              1,706.64
                                                            Review
                           E-0033                           Sierra Wharf Dredge             7/23/2009                      -                  -                   -                  -
                                                            Material Permitting
                           E-0037                           Cultural Resources Study        5/13/2010           4,959.00               4,959.00                   -                  -
                           E-0039                           Cultural Landscape Report,      5/13/2010          19,965.00              19,965.00                   -                  -
                                                            Tinian N. Field
                           E-0040                           Socioeconomic Study Guam         5/6/2011         285,397.00             285,397.00                   -                  -
                                                            Buildup
                           E-0041                           Finegayan                       5/13/2010          10,375.00              10,375.00                   -                  -
                           E-0044                           Utility Study, Water (Lost      5/13/2010          13,288.01              13,288.01                   -                  -




      19
                                                            River)
                           E-0045                           Biosecurity Plan                10/17/2011      2,496,044.56           2,492,356.05       123,388.16              3,688.51
                           E-0046                           Utility Study New Wells         2/28/2009       1,918,150.74           1,912,180.74                   -           5,970.00
                           E-0047                           Air Impact Study                5/28/2009         175,706.00             175,706.00                   -                  -
                           E-0048                           Apra Harbor Landfill            2/28/2009          88,785.00              88,785.00                   -                  -
                                                            Groundwater Study
                           E-0049                           Aquifer Sustainable Yield       2/28/2009          22,948.00              22,948.00                   -                  -
                           E-0050                           Cycling Demolition (C&D)        12/29/2009        491,998.00             491,998.00                   -                  -
                                                            Recycling Study
                           E-0051                           Archaeological Curation         7/24/2009         315,466.03             308,180.90                   -           7,285.13
                           E-0052                           Haul Roads                      2/28/2009       3,780,121.33           3,696,610.00                   -          83,511.33
                           E-0053                           Special Airspace Feasibility    7/24/2009       1,010,921.00             784,379.13        35,061.55           226,541.87
                                                            Study
                           E-0054                           Bats and Snails                 7/23/2009          70,227.00              70,227.00                   -                  -
                           E-0056                           Mod Alt 2                       7/23/2009         219,970.00             219,970.00                   -                  -
                           E-0057                           Adaptive Management             7/23/2009         223,338.00             223,338.00                   -                  -
                           E-0060                           Tinian Training Ranges EIS      8/17/2009         100,237.00             100,237.00                   -                  -
                           E-0061                           LEED Sustainability Study       8/17/2009         744,989.00             744,989.00                   -                  -
                                                                                                                                                                                         Section 2: Project and Program Costs
                                                                                                                                                                                                       (Section 2835(e)(1)(B))




        January 31, 2014
Guam Realignment Report
                           	        Section 2835(e)(1)(B)
                          	        Section 2835(e)(1)(B)

                                                                                                                                             Cost Incurred
                                                                                                                          Cost Incurred to    January 1 -
                                                                                                        Total Estimated   Date (US or GOJ    September 30,       Estimated Costs
                                         Project               Description/Scope           Start Date         Cost            Funds)             2013              to Complete
                          E-0063                           Drainage Low Impact             8/20/2009         518,591.78         518,591.78                   -                 -
                                                           Development




January 31, 2014
                          E-0064                           Paper Wasp Attractant Study      9/1/2010          90,886.00          50,854.98        12,870.76            40,031.02
                          E-0066                           On-Base Utility Study           9/24/2009          69,797.00          69,797.00                   -                 -
                                                                                                                                                                                   (Section 2835(e)(1)(B))




                          E-0067                           Wetlands Delineation Study      12/29/2009        188,822.17         180,855.35                   -          7,966.82
                          E-0069                           Ground Water Study              12/22/2011      1,368,350.00       1,113,375.17        93,339.45           254,974.83




Guam Realignment Report
                          E-0070                           Emissions Calculations          5/13/2010          25,745.00          25,745.00                   -                 -
                                                           MSAT
                          E-0071                           Northern District Waste         5/13/2010           1,241.00           1,241.00                   -                 -
                                                           Water Treatment Plant
                                                                                                                                                                                   Section 2: Project and Program Costs




                                                           (NDWTTP) Diffuser Study
                          E-0077                           Public Comment Assistance       2/18/2010         365,921.00         365,921.00                   -                 -
                                                           - Part I
                          E-0079                           Sewer Interceptor               4/10/2009         104,659.00         104,659.00                   -                 -
                          E-0080                           DEIS Executive Summary          12/16/2009          2,000.00           2,000.00                   -                 -
                                                           Translation
                          E-0083                           EIS Tiger Team Additional       2/19/2010         479,134.65         479,134.65                   -                 -




      20
                                                           Spt
                          E-0087                           Arch Mitigation                 10/20/2011        888,139.48         119,409.90                   -        768,729.58
                          E-0089                           WWTP Upgrade                    5/13/2010           2,441.00           2,441.00                   -                 -
                          E-0090                           Barrigada Water Utility Study   3/31/2010          29,210.55          29,210.55                   -                 -
                          E-0091                           Power Utility Study Update      5/21/2009          39,484.19          38,862.82                   -            621.37
                          E-0092                           Utility Tech Update Admin       6/17/2011          52,105.65          52,105.65                   -                 -
                                                           Record
                          E-0093                           Waste Water Utility Update      3/31/2010          45,796.07          45,796.07                   -                 -
                          E-0095                           Integrated Solid Waste           2/4/2010         225,339.53         159,880.56        44,218.00            65,458.97
                                                           Management Plan (ISWMP)
                          E-0096                           Coastal Consistency             7/15/2010          19,956.00          19,879.06                   -             76.94
                                                           Determination
                          E-0098                           Revised Hardcopies of FEIS      8/20/2010          22,188.00          22,188.00                   -                 -
                          E-0099                           Guam Wellhead Protection        9/15/2010          37,591.00          37,591.00                   -                 -
                                                           Regulations
                          E-0100                           Finegayan Landfill No 2 Site    9/16/2010         471,871.04         470,606.02           734.35             1,265.02
                                                           Investigation
                                                                                                                                             Cost Incurred
                                                                                                                          Cost Incurred to    January 1 -
                                                                                                       Total Estimated    Date (US or GOJ    September 30,       Estimated Costs
                                         Project                Description/Scope         Start Date         Cost             Funds)             2013              to Complete
                           E-0101                           Follow-on NEPA Terrestrial    12/23/2010        982,938.96          231,743.73                   -        751,195.23
                                                            Mitigation
                           E-0102                           Cultural Resources            10/28/2010        856,869.97          321,738.50        17,368.53           535,131.47
                                                            Consultation and Mitigation
                           E-0103                           ROD Litigation                10/17/2011         86,595.00           86,595.00                   -                  -
                           E-0104                           Follow-on NEPA Terrestrial    10/25/2010        313,025.18          124,802.63                   -        188,222.55
                                                            Mitigation
                           E-0105                           Pesticide Soil Impacted       10/25/2010         62,222.18           62,222.18                   -                  -
                                                            Management Plan
                           E-0106                           Support SIR Preparation       5/20/2011          71,471.88           71,471.88                   -                  -
                           E-0109LA                         Naval Munitions Site Alts     12/23/2011      2,296,608.58        1,404,918.31      1,167,475.90          891,690.27
                                                            SEIS
                           E-0109LB                         NEPA Scoping SEIS             12/23/2011        635,172.00          624,898.00                   -         10,274.00
                           E-0109LC                         Watershed Recon Studies       12/23/2011        210,219.00          206,842.38        50,565.89              3,376.62
                                                            SEIS




      21
                           E-0109LD                         LFTRC SEIS                    12/23/2011      1,235,506.00        1,153,458.75       528,316.05            82,047.25
                           E-0109LQ                         SEIS                          12/23/2011          9,717.30            9,717.30                   -                  -
                           E-0109VE                         Training Range Alts SEIS      12/23/2011      2,122,266.00        1,684,165.20       976,519.28           438,100.80
                           E-112LA                          Candidate Species Survey      7/16/2012         364,450.43          102,041.19       102,041.19           262,409.24
                           E-112LB                          Socioeconomic Study - SEIS    7/16/2012         801,406.00          424,668.17       373,391.17           376,737.83
                           E-112LC                          NOI Scoping, Draft, & Final   7/13/2012       6,907,394.00          268,907.00                   -       6,638,487.00
                                                            SEIS
                           E-112LD                          Additional Studies            8/23/2012         678,547.00          126,044.68        98,523.91           552,502.32
                           E-112LF                          FHWA Traffic Study            5/16/2013       1,684,053.47            3,435.65          3,435.65         1,680,617.82
                           E-112VE                          Phase II Planning             7/13/2012        4,113,715.00       3,165,549.19      3,080,732.19          948,165.81
                           H-0001                           Guam Housing Special          8/20/2009         393,191.00          393,191.00                   -                  -
                                                            Purpose Entity (PPV)
                           J-0023                           BOQ 1391s                      4/6/2010         295,613.62          295,613.62                   -                  -
                           J-0025                           Finegayan Med/Dental Clinic    4/6/2010         259,538.84          259,538.84                   -                  -
                                                            1391s
                           J-002X                           Admin Facilities 1391s         4/6/2010         683,407.57          680,910.85                   -           2,496.72
                           N-0038                           Acoustic Monitoring           10/25/2010            425.13              425.13                   -                  -
                           P-0001                           Master Plan, Phase II (IHS)   3/17/2010         410,000.00          410,000.00                   -                  -
                                                                                                                                                                                    Section 2: Project and Program Costs
                                                                                                                                                                                                  (Section 2835(e)(1)(B))




        January 31, 2014
Guam Realignment Report
                           	        Section 2835(e)(1)(B)
                          	        Section 2835(e)(1)(B)

                                                                                                                                            Cost Incurred
                                                                                                                         Cost Incurred to    January 1 -
                                                                                                       Total Estimated   Date (US or GOJ    September 30,       Estimated Costs
                                         Project               Description/Scope          Start Date         Cost            Funds)             2013              to Complete
                              P-001B                       Master Plan Phase III           8/5/2011       4,647,914.07       1,647,914.07       182,303.00          3,000,000.00




January 31, 2014
                              P-0004                       Project Documentation          9/30/2009       4,000,000.00          36,324.24                   -       3,963,675.76
                              P-0012                       Develop 1391s and DPRI         7/24/2009         932,997.54         570,628.52        63,434.35           362,369.02
                                                           Project Support
                                                                                                                                                                                   (Section 2835(e)(1)(B))




                              P-0015                       Master Plan Phase II            9/3/2009         776,117.00         776,089.83                   -             27.17




Guam Realignment Report
                              P-0030                       Tinian MP Phase II             7/23/2009       1,093,790.95         997,635.95         1,000.00            96,155.00
                              P-0044                       SPE Consultant                  2/6/2009         198,020.00         198,020.00                   -                  -
                              P-0046                       SPE Construct                   1/7/2009       5,591,773.70       5,591,619.95                   -            153.75
                              P-0050                       Historical Ordnance             7/1/2009         108,447.00         108,447.00                   -                  -
                                                                                                                                                                                   Section 2: Project and Program Costs




                              P-0054                       Barrigada Study                 5/4/2009         388,367.00         388,367.00                   -                  -
                              P-0055                       Master Plan Alts 1,3,8         8/23/2011          99,817.00          99,817.00                   -                  -
                              P-0057                       Traffic Study                  7/24/2009         163,698.00         163,698.00                   -                  -
                              P-0059                       Combustion Turbine Study       2/19/2010         421,643.00         292,254.70                   -        129,388.30
                              P-0060                       Explosive Safety                4/8/2011         846,183.21         306,351.45                   -        539,831.76
                              P-0062                       ATFP Blast Analysis             4/6/2010         106,937.33         106,937.33                   -                  -




      22
                              P-0063                       Tinian Pagan Topographic       3/25/2010         288,549.37         288,549.37                   -                  -
                                                           Contour Data
                              P-0064                       Guam Community Integrated      8/20/2010         569,204.44         569,204.44                   -                  -
                                                           Master Plan
                              P-0065                       Facility Management            3/11/2011          83,771.28          83,771.28                   -                  -
                                                           Sustainment (FMS) Work
                                                           Plan
                              P-0066                       Utility Energy Management      3/11/2011          51,800.63          51,800.63                   -                  -
                                                           (UEM) Work Plan
                              P-0075                       Alternative Laydown Plans       8/5/2011       2,765,240.00       1,104,865.11       861,912.15          1,660,374.89
                              R-0001                       Appraisal Guam (less            9/3/2009         967,452.01         864,948.74                   -        102,503.27
                                                           Harmon)
                              R-0003                       Boundary Survey (FAA           7/24/2009         210,199.00         204,360.38                   -          5,838.62
                                                           Parcel)
                              R-0005                       Title Evidence (HIS)           3/18/2010          14,606.88          14,300.00                   -            306.88
                              R-0007                       Environmental Baseline          5/7/2009         920,408.08         548,318.44           936.36           372,089.64
                                                           Study
                              R-0008                       Environmental Site             10/25/2010         11,081.83          10,956.43                   -            125.40
                                                           Assessment - Route 15
                              R-0009                       Relocation Assistance Plan     11/13/2009        126,448.00          50,756.80                   -         75,691.20
                              R-0011                       Finding of Suitability, Guam   3/17/2010         533,141.36           8,141.36                   -        525,000.00
                              R-0013                       Environmental Baseline SPE     3/22/2010         461,756.23         460,758.14                   -            998.09
                                                                                                                                                           Cost Incurred
                                                                                                                                        Cost Incurred to    January 1 -
                                                                                                                    Total Estimated     Date (US or GOJ    September 30,       Estimated Costs
                                                Project                      Description/Scope         Start Date         Cost              Funds)             2013              to Complete
                                S-0004                                   NAVFAC HQ Labor Support       3/24/2009        2,331,072.50        2,165,322.25                   -        165,750.25
                                S-0005                                   NAVFACPAC Yearly Labor        2/24/2009       17,539,928.06       14,905,033.07      1,567,241.84         2,634,894.99
                                                                         Support
                                S-0006                                   NAVFACMAR Yearly Labor        1/26/2010         5,565,611.00       3,703,771.37               8.51        1,861,839.63
                                                                         Support
                                S-0010                                   Program Support Contract      9/10/2009        3,039,981.83        2,629,212.14                   -        410,769.69
                                S-0012                                   PIB IPR Facilitation          2/26/2010          156,600.00          156,600.00                   -                  -
                                S-0014                                   GPMO NAVFACPAC                 3/7/2011        2,279,737.51          256,387.87                   -       2,023,349.64
                                                                         SPAWAR C4ISR/IT Liaison
                                S-0015                                   Guam Program Support          9/29/2011        9,040,299.00        3,454,018.60        241,341.61         5,586,280.40
                                S-0016                                   NAVFACPAC JV                  9/28/2010        1,283,479.00        1,283,479.00                   -                  -
                                                                         Management Support
                                U-0001                                   Northern District Waste       7/23/2009          296,426.16          296,426.16                   -                  -
                                                                         Water Treatment Plant
                                                                         (NDWWTP)




      23
                                U-0002                                   Increase Pump Rate, Marbo     9/25/2010        1,228,387.00        1,214,181.48         51,169.27           14,205.52
                                                                         Wells 5-9
                                U-0003                                   Tumon Maui Well               9/16/2010          390,883.00          380,400.41                   -         10,482.59
                                                                         Rehabilitation
                                U-0004                                   Combustion Turbines (CTs)     3/11/2011        1,068,886.54           24,886.54                   -       1,044,000.00
                                                                         Permit Air Monitoring
                                U-0005                                   Tumon Maui Well Rehab         9/26/2011         4,711,974.78       4,036,469.30      2,682,700.30          675,505.48
                                N/A                                      Guam Road Projects -          8/17/2009        1,595,940.00        1,261,445.46                   -        334,494.54
                                                                         Defense Access Roads
                                                                         (DAR) Program [FHWA]
                                   Subtotal                                                                          $141,519,701.25      $99,281,674.92    $13,947,323.68      $42,238,026.33
                                   Total                                                                             $716,116,811.72    $433,052,624.41    $133,869,836.52     $283,064,187.31
                               Source: Naval Facilities Engineering Command’s response to DoD OIG data call, 12/02/2013 and Headquarters Marine Corps’ response to DoD OIG data call,
                               11/07/2013.
                                                                                                                                                                                                  Section 2: Project and Program Costs
                                                                                                                                                                                                                (Section 2835(e)(1)(B))




        January 31, 2014
Guam Realignment Report
                           	          Section 2835(e)(1)(B)
                          	       Section 2835(e)(1)(B)



                          OTHER FEDERAL AGENCY PROJECT AND PROGRAM LIST
                          From January 1, 2013, through September 30, 2013, DOT identified funds directly associated with the realignment of military installations




January 31, 2014
                          and military personnel to Guam. Specifically, the agency reported a total of 28 projects that were directly associated with the realignment.
                          DOT projects incurred costs of approximately $17.7 million with estimated completion costs of approximately $19.2 million.
                          Table 5 identifies the DOT projects and associated costs.
                                                                                                                                                                                        (Section 2835(e)(1)(B))




Guam Realignment Report
                                                                      Table 5. Costs for Other Federal Agency Projects and Programs

                                                                                                                                                        Cost Incurred
                                                                                                                                     Cost Incurred to    January 1 -    Estimated
                                                                                                                                                                                        Section 2: Project and Program Costs




                                                                                                                   Total Estimated   Date (US or GOJ    September 31,    Costs to
                              Agency              Project                  Description/Scope          Start Date         Cost            Funds)             2013        Complete
                          DOT          DTMA1D10002                     MA-PR510-20120007/MA-          4/23/2010     $1,482,626.89       $983,501.24       $983,501.24   $499,125.65
                                                                       PR510-20130044 / Guam
                                                                       Project Management Office
                          DOT          DTMA1D10002                     MA-PR510-20120024 / Task       1/23/2013      1,149,974.00        360,797.36        360,797.36    789,176.64
                                                                       Order 10/ Container Freight
                                                                       Station (CFS) Modification




      24
                                                                       and Construction
                          DOT          DTMA1D10002                     MA-PR510-20120023A             1/10/2013      2,145,044.80       1,688,433.66     1,688,433.66    456,611.14
                                                                       / Task Order 6/ Facility
                                                                       Expansion Design Package
                          DOT          DTMA1D10002                     MA-PR510-20130054/             8/5/2013       1,798,109.00                  -                -   1,798,109.00
                                                                       Task Order 11/Selected
                                                                       Demolition and Break Bulk
                                                                       Yard Mod
                          DOT          DTMA1D10002                     Structural Review - Berths      8/1/2011       106,388.00          89,622.04                 -     16,765.96
                                       (Mod 8)                         4, 5 & 6
                                                                       (August 1, 2011 through
                                                                       September 05, 2011)
                          DOT          DTMA1D10002                     Project Management             12/11/2011        93,351.55         93,351.55                 -               -
                                       (Mod 11)                        (December 11, '11 -
                                                                       February 18, '12)
                          DOT          DTMA1D10002                     To develop a geotechnical      2/29/2012       245,668.00         219,061.21                 -     26,606.79
                                       (Task Order 1, Including all    & seismic evaluation of
                                       Mods)                           the wharf and finalize the
                                                                       Implementation Plan by
                                                                       March 2012.
                          DOT          DTMA1D10002                     To develop lighting plan for   11/2/2011       160,370.00         160,370.00                 -               -
                                       (Task Order 2)                  the port to hire a container
                                                                       yard lighting contractor.
                                                                                                                                                 Cost Incurred
                                                                                                                              Cost Incurred to    January 1 -    Estimated
                                                                                                            Total Estimated   Date (US or GOJ    September 31,    Costs to
                               Agency             Project           Description/Scope          Start Date         Cost            Funds)             2013        Complete
                           DOT          DTMA1D10002             To amend the lighting plan     1/17/2012         25,874.00         25,874.00         16,650.03               -
                                        (Task Order 2, Mod 1)   per additional lights based
                                                                on available FEMA funds.
                           DOT          DTMA1D10002             Completion of the              1/1/2012         170,811.00         170,811.00        11,184.38               -
                                        (Task Order 3)          Environmental Assessment.
                           DOT          DTMA1D10002             Project Management             2/19/2012         41,195.20         41,195.20                 -               -
                                        (Mod 13)                (February 19, '12 -
                                                                March 31, '12)
                           DOT          DTMA1D10002             Project Management             4/1/2012          48,655.27         48,655.27                 -               -
                                        (Mod 14)                (April 1-30, '12)
                           DOT          DTMA1D10002             Project Management             5/1/2012        158,401.00         155,588.66                 -      2,812.34
                                        (Mod 15)                (May 1, '12 - July 31, '12)
                           DOT          DTMA1D10002             Designing three bays of        7/26/2012       168,092.00         109,109.92         12,851.93     58,982.08
                                        (Task Order 4)          the existing CFS building
                                                                to include new office space
                                                                components.
                           DOT          DTMA1D10002             Support overall GCPI           8/7/2012        473,904.00         349,727.42        148,707.11    124,176.58
                                        (Task Order 5)          program environmental
                                                                service as well as TO




      25
                                                                005-specific environmental
                                                                testing and providing the
                                                                following design services in
                                                                the PAG Break Bulk (BB)
                                                                Yard: demolition of selected
                                                                structures, replacement
                                                                of associated lost lighting
                                                                and pavement repairs, and
                                                                implementation of four oil
                                                                water separators.
                           DOT          DTMA1D10002             Project Management             8/7/2012        272,919.55         245,212.41                 -     27,707.14
                                        (Task Order 7)          (August 1, '12 -
                                                                October 31, '12)
                           DOT          DTMA1D10002             Project Management             11/2/2012       534,091.00         534,091.00        534,091.00               -
                                        (Task Order 8)          (November 1, '12 -
                                                                April 30, '13)
                           DOT          1BPC11000004/11         Maritime Administration        1/1/2012         242,111.73        241,964.44         12,852.71       147.29
                                                                Engineering Support
                                                                                                                                                                                 Section 2: Project and Program Costs
                                                                                                                                                                                               (Section 2835(e)(1)(B))




        January 31, 2014
Guam Realignment Report
                           	       Section 2835(e)(1)(B)
                          	       Section 2835(e)(1)(B)


                                                                                                                                                    Cost Incurred
                                                                                                                                 Cost Incurred to    January 1 -    Estimated
                                                                                                               Total Estimated   Date (US or GOJ    September 31,    Costs to
                              Agency             Project                Description/Scope         Start Date         Cost            Funds)             2013        Complete
                          DOT          FHWA - Government of         Prepare NEPA Document         10/1/2008      5,372,550.00       5,228,561.00       192,195.38    143,989.00




January 31, 2014
                                       Guam Contract                and Coordination between
                                       Island wide Program          Government of Guam DPW,
                                       Management Services          FHWA, and DOD
                                                                                                                                                                                   (Section 2835(e)(1)(B))




                                       GU-NH-IPMS(002)
                                       DTFH6109X50001




Guam Realignment Report
                                       (funds from
                                       USMC =
                                       $3,696,610/Mod 1;
                                       BUMED =
                                       $80,000/Mod 2;
                                                                                                                                                                                   Section 2: Project and Program Costs




                                       USMC =
                                       $1,595,940/Mod 3)
                          DOT          FHWA - Government of         Prepare Design/Build          2/1/2010       3,405,996.95       2,625,731.69       319,655.96    780,265.26
                                       Guam Contract                request for Qualifications
                                       Island wide Program          for Proposals for FY2010
                                       Management Services          DAR projects, Route 1 east
                                       GU-NH-IPMS(002)              of Route 4, Route 11/1,
                                       27XX66IPMS00273P0 =          Route 11, Route 1/8, and




      26
                                       $3,031,241                   Agana Bridge and Utility
                                       27XX66IPMS00273V0 =          Coordinator
                                       $374,756

                          DOT          FHWA - Government of         Consultant for Route 1/3      6/8/2011        570,740.00          59,262.00                 -    511,478.00
                                       Guam Contract                Intersection
                                       Route 1 and 3 Intersection
                                       Improvements
                                       GU-NH-0001(125)
                                       27XX66000112573P0
                          DOT          FHWA - Government of         Consultant for Route 3 from   5/26/2011     $2,182,765.00       $125,664.63                 -   2,057,100.37
                                       Guam Contract                Route 28 to Chalan Kareta
                                       Route 3 from Route 28 to
                                       Chalan Kareta
                                       GU-NH-0003(105)
                                       27XX66000310573V0
                          DOT          FHWA - Government of         Construction of Route 1       9/28/2011     11,925,113.91       5,218,649.61     1,707,345.45   6,706,464.30
                                       Guam Contract                Agana Bridge and Route 1/8
                                       Route 1 Agana Bridge and     Intersection
                                       Route 1/8 Intersection
                                       GU-DAR-TI01(001)
                                       27XX66TI0173V0
                                                                                                                                                       Cost Incurred
                                                                                                                                    Cost Incurred to    January 1 -       Estimated
                                                                                                                  Total Estimated   Date (US or GOJ    September 31,       Costs to
                               Agency               Project                Description/Scope         Start Date         Cost            Funds)             2013           Complete
                           DOT            FHWA - Government of         Construction of Route 11      10/4/2011     14,016,298.99      13,198,558.45     10,994,523.71      817,740.54
                                          Guam Contract                and Route 1/11 Intersection
                                          Route 11 (Route 1 to
                                          Route 11) and Route 1/11
                                          Intersection
                                          GU-DAR-0011(008)
                                          27XX66001100873V0
                           DOT            FHWA - Government of         Construction Management       9/28/2011      2,517,164.58        448,101.33        448,101.33      2,069,063.25
                                          Guam Contract                for Route 1 Agana Bridge,
                                          Island wide Professional     Route 1/8, Route 11, Route
                                          Construction Management      1/11
                                          Services
                                          GU-NH-PCMS(001)
                                          27XX66PCMS00173V0
                           DOT            FHWA - Government of         Archaeological Support        3/22/2011      2,409,644.90        345,000.68        296,442.32      2,064,644.22
                                          Guam Contract                for Route 1 Agana Bridge,
                                          Professional Services for    Route 1/8, and Route 1/11
                                          Archaeological Support
                                          GU-NH-PSAS(001)
                                          27XX66PSAS00173V0




     27
                           DOT            FHWA - Government of         Quality Assurance Testing     11/16/2011      299,485.00           11,492.82          4,945.71      287,992.18
                                          Guam Contract                for Route 1 Agana Bridge,
                                          Technical Support Services   Route 1/8, Route 11, and
                                          Island wide Quality          Route 1/11
                                          Assurance Testing
                                          GU-NH-TSIS(002)
                                          27XX66TSIS00273V0
                           DOT            FHWA - Government of         Geotechnical Engineering      8/23/2010         33,120.00         33,120.00                  -                 -
                                          Guam Contract                for Route 1 Agana Bridge
                                          Technical Support Services   and Route 1/8
                                          Island wide GeoTechnical
                                          Engineering
                                          GU-NH-TSIS(001)
                                          27XX66TSIS00173V0
                               Total                                                                              $52,050,466.32    $32,811,508.59     $17,732,279.28   $19,238,957.73
                           Source: DOT’s response to DoD OIG data call, 11/15/2013.
                                                                                                                                                                                          Section 2: Project and Program Costs
                                                                                                                                                                                                        (Section 2835(e)(1)(B))




        January 31, 2014
Guam Realignment Report
                           	           Section 2835(e)(1)(B)
  U.S. Naval Hospital Ship Mercy at sea.
  Source: Department of Defense




Guam Realignment Report
January 31, 2014
                                       3
Government of Japan Revenue




                                          Section 2835 (e)(1)(C)
                                      	


                                                   	




                      Guam Realignment Report
              29
                              January 31, 2014
                         Section 3: Government of Japan Revenue
                         (Section 2835(e)(1)(C))

                         Section 2350k, title 10 of the United States Code, grants the Secretary of Defense authority to accept
                         cash contributions from any nation in support of a relocation of the armed forces. According to
                         agreements between the U.S. and GOJ, GOJ is expected to provide up to $6.09 billion (FY 2008 U.S.
                         dollars) for the Marine Corps relocation from Okinawa to Guam. Public Law 111-84 requires the ICG
                         annual report to contain a detailed statement on the revenues contributed by GOJ and any obligations or
                         expenditures of these revenues.


                         GOJ FUNDING FOR REALIGNMENT
                         From January 1, 2013, through September 30, 2013, the Defense Finance and Accounting Service
                         reported that GOJ provided revenues of approximately $114.3 million, earned approximately
                         $1.4 million in interest associated with revenues contributed to date, obligated approximately
                         $7.4 million, and expended approximately $40 million. Table 6 shows the revenues, interest,
                         obligations, and expenditures for each project.

                                                 Table 6. GOJ Revenues/Interest/Obligations/Expenditures
                                                                 Revenue             Earnings on
                                       Project                 (Contribution)        Investment        Obligations       Expenditures
                         Interest Earned Japanese FY 09                    $-            $368,680.15             $-                 $-
                         Funds
                         Interest Earned Japanese FY 10                         -         968,377.80                 -                  -
                         Funds
                         Interest Earned Japanese FY 11        114,300,000.00              16,498.80                 -                  -
                         Funds
                         Japanese FY 09 Design Fire Station                     -                  -      59,041.45           59,041.45

                         Japanese FY 09 Design Waterfront                       -                  -                 -                  -
                         Headquarters
                         Japanese FY 09 Design Apra Medical                     -                  -                 -                  -

                         Japanese FY 09 Design Bachelor                         -                  -                 -                  -
                         Enlisted Quarters Complex
                         Japanese FY 09 Construction                            -                  -    6,146,268.57       6,808,024.46
                         Andersen Air Force Base
                         Japanese FY 09 Construction Apra                       -                  -    1,240,326.56      33,101,199.19

                           Total                              $ 114,300,000.00       $1,353,556.75     $7,445,636.58     $39,968,265.10
                         Source: Defense Finance and Accounting Service’s response to DoD OIG data call, 11/20/2013.				
                         			
Section 2835(e)(1)(C)
	




                        Guam Realignment Report
                                                                                    30
                        January 31, 2014
     Section 3: Government of Japan Revenue
                      (Section 2835(e)(1)(C))




                                                Section 2835(e)(1)(C)
                                                	




                   Guam Realignment Report
31
                           January 31, 2014
  A U.S. Air Force F-16D Fighting Falcon aircraft departs the runway at Andersen AFB, Guam.
  Source: Department of Defense




Guam Realignment Report
January 31, 2014
                                      4
Operating Expenses




                                        	 Section 2835(e)(1)(D)




                     Guam Realignment Report
              33
                             January 31, 2014
                         Section 4: Operating Expenses
                         (Section 2835(e)(1)(D))

                         Public Law 111-84 requires the ICG annual report to contain a detailed statement on the operating
                         expenses of agencies or entities receiving amounts appropriated or otherwise made available for military
                         construction on Guam. The DoD Financial Management Regulation states that operating expenses
                         include costs for personnel, travel, communications, contractual services, and other program expenses.

                         DEPARTMENT OF THE NAVY OPERATING EXPENSES
                         From January 1, 2013, through September 30, 2013, the Department of the Navy reported operating
                         expenses of approximately $19.5 million. Table 7 lists the operating expenses for Department of the
                         Navy support organizations associated with the military realignment on Guam.

                              Table 7. Department of the Navy Operating Expenses Related to the Guam Realignment
                                             Organization                 Description of Expenses Incurred     Operating Expenses
                                JGPO                                    Salaries                                     $1,060,308.00
                                JGPO                                    Travel                                           41,400.00
                                JGPO                                    Intergovernmental Purchases                     367,400.00
                                JGPO                                    Supplies                                         11,118.00
                                USMC Pacific Division                   Salaries                                        630,638.64
                                USMC Pacific Division                   Travel                                          105,585.51
                                USMC Pacific Division                   Contract                                        250,000.00
                                USMC Marine Corps Forces Pacific        Travel                                          126,668.81
                                USMC Marine Corps Forces Pacific        Communications                                   11,466.03
                                USMC Marine Corps Forces Pacific        Contracts & Other Services                    1,821,651.05
                                USMC Marine Corps Forces Pacific        Supplies & Materials                              4,461.67
                                USMC Installations and Logistics        Travel                                           45,580.10
                                USMC Installations and Logistics        Contracts & Other Services                      444,795.28
                                USMC Installations and Logistics        Expensed via Naval Facilities                14,290,793.41
                                                                        Engineering Command
                                USMC Installations and Logistics        Expensed via Other Agencies                     267,372.54
                                  Total                                                                             $19,479,239.04
                               Source: JGPO’s response to DoD OIG data call, 12/02/2013 and Headquarters Marine Corps’ response to
                               DoD OIG data call, 11/07/2013.
Section 2835(e)(1)(D)
	




                        Guam Realignment Report
                                                                                     34
                        January 31, 2014
                                                                               Section 4: Operating Expenses
                                                                                      (Section 2835(e)(1)(D))

OPERATING EXPENSES FOR OTHER FEDERAL AGENCIES
From January 1, 2013, through September 30, 2013, DOT and the Environmental Protection Agency
(EPA) reported approximately $404,600 in operating expenses associated with the realignment of
military installations and military personnel to Guam. Specifically, DOT identified salary, travel, and
administration costs. EPA identified salary costs. Table 8 lists operating expenses for DOT and the EPA
associated with the military realignment on Guam.

      Table 8. Other Federal Agency Operating Expenses Related to the Guam Realignment
                                               Description of Expenses      Operating
                              Agency                  Incurred              Expenses
                     DOT                       Admin                       $110,307.19
                     DOT                       Travel                         19,702.54
                     DOT                       Salaries                      232,811.88
                     EPA                       Salaries                       41,771.00
                      Total                                                $404,592.61
                    Source: DOT’s and EPA’s responses to DoD OIG data call, 11/15/2013
                    and 10/31/2013, respectively.




                                                                                                                Section 2835(e)(1)(D)
                                                                                                                	




                                                                                    Guam Realignment Report
                                                  35
                                                                                            January 31, 2014
  U.S. Air Force personnel perform ongoing construction at Andersen AFB, Guam.
  Source: Department of Defense




Guam Realignment Report
January 31, 2014
                                              5
Contracts, Grants, Agreements, or Other
Funding Mechanisms Data




                                                	 Section 2835(e)(1)(E)




                             Guam Realignment Report
                  37
                                     January 31, 2014
                          	          Section 2835(e)(1)(E)
                          Public Law 111-84 requires the ICG annual report to contain a detailed statement on the awarded contracts, grants, agreements, or other funding
                          mechanisms that used amounts appropriated or otherwise made available for military construction on Guam.

                          DoD CONTRACTS/GRANTS/AGREEMENTS/OTHER FUNDING MECHANISMS
                          From January 1, 2013, through September 30, 2013, DoD reported a total of 48 contracts, grants, agreements, or other funding mechanisms




January 31, 2014
                          totaling approximately $31.4 million that were used to support military construction on Guam. Specifically, Headquarters Marine Corps
                          reported two contracts, grants, agreements, or other funding mechanisms totaling approximately $713,000 that were used to support
                          military construction on Guam. Naval Facilities Engineering Command reported a total of 43 contracts, grants, agreements, or other funding




Guam Realignment Report
                          mechanisms totaling approximately $29.3 million that were used to support military construction on Guam. The Office of Economic
                          Adjustment reported a total of three grants totaling approximately $1.4 million that were used to support military construction on Guam.
                          Table 9 identifies Headquarters Marine Corps, Naval Facilities Engineering Command, and Office of Economic Adjustment contracts, grants,
                          agreements, or other funding mechanisms.31 A contract may be listed multiple times due to a task order, delivery order, or modification
                          increasing the value of the contract.
                                                                                                                                                                                                       Mechanisms Data (Section 2835(e)(1)(E))




                                     Table 9. DoD Contracts, Grants, Agreements, or Other Funding Mechanisms Supporting the Guam Military Realignment
                                                                                             Amount
                                          Contract Number,                                  Obligated/
                                          Grant, Agreement,                             Awarded January
                                             or Funding                                 1 - September 30,                                           Method Used to                           Offers




      38
                              Agency       Mechanism Title        Ceiling Amount               2013                 Scope / Description              Solicit Offers      Offers Solicited   Received
                                                                                                                                                                                                       Section 5: Contracts, Grants, Agreements, or Other Funding




                              USMC       M2002113RC00029               $143,239.48           $143,239.48     FF&E for Military Working                     N/A                 N/A            N/A
                                                                                                             Dog Facility - NAVFACPAC to
                                                                                                             provide furnishings, fixtures, and
                                                                                                             equipment for the naval security
                                                                                                             force military working dogs facility
                                                                                                             on Guam
                              USMC       N00178-04-D-4024-             2,536,645.52           569,420.91     Engineering, Master Planning, and      SEAPORT                    N/A             3
                                         MUT3                                                                Environmental Support                  e-portal;
                                                                                                                                                    unrestricted (Full
                                                                                                                                                    and Open); FFP
                                                                                                                                                    Task Order
                               Subtotal Total                        $2,679,885.00           $712,660.39




                          3
                              The table contains negative numbers listed in parenthesis, which represent de-obligations.
                                                                                   Amount
                                        Contract Number,                          Obligated/
                                        Grant, Agreement,                     Awarded January
                                           or Funding                         1 - September 30,                                Method Used to                         Offers
                               Agency    Mechanism Title    Ceiling Amount           2013              Scope / Description      Solicit Offers    Offers Solicited   Received
                                                                                   Naval Facilities Enginnering Command
                               NAVFAC   N4019210C3000           N/A                   (456.43)    BASE OPERATIONS SUPPORT    NEGOTIATED          FULL AND OPEN          7
                                                                                                  (BOS) SERVICES CONTRACT,   PROPOSAL/           COMPETITION
                                                                                                  VARIOUS INSTALLATIONS,     QUOTE
                                                                                                  TERRITORY OF GUAM:
                                                                                                  MODIFICATION TO DEOBLIGATE
                                                                                                  FUNDING FOR NAVFACPAC
                                                                                                  (NGBTS LANDFILL #2), FOR
                                                                                                  THE SECOND AWARD OPTION
                                                                                                  PERIOD.
                               NAVFAC   N4019210D0007         50,000,000.00        (31,290.41)    MODIFICATION TO DEDUCT       SUBJECT TO        FULL AND OPEN          4
                                                                                                  MUNITIONS AND EXPLOSIVES     MULTIPLE          COMPETITION
                                                                                                  OF CONCERN (MEC)             AWARD FAIR        AFTER
                                                                                                  CONSTRUCTION SUPPORT         OPPORTUNITY       EXCLUSION OF
                                                                                                  ACTIVITIES FOR WORK ON                         SOURCES
                                                                                                  THE NORTH RAMP PARKING




      39
                                                                                                  PROJECT AT ANDERSEN AIR
                                                                                                  FORCE BASE GUAM.
                               NAVFAC   N4019210D0007         50,000,000.00       (275,870.05)    MODIFICATION TO DEDUCT       SUBJECT TO        FULL AND OPEN          3
                                                                                                  MUNITIONS AND EXPLOSIVES     MULTIPLE          COMPETITION
                                                                                                  OF CONCERN SERVICES FOR      AWARD FAIR        AFTER
                                                                                                  THE NORTH RAMP PHASE         OPPORTUNITY       EXCLUSION OF
                                                                                                  3 PROJECT, ANDERSEN AIR                        SOURCES
                                                                                                  FORCE BASE, GUAM.
                               NAVFAC   N4019210D0007         50,000,000.00          90,519.33    TASK ORDER FOR MEC           SUBJECT TO        FULL AND OPEN          3
                                                                                                  INTRUSIVE INVESTIGATION      MULTIPLE          COMPETITION
                                                                                                  AND CLEARANCE FOR THE        AWARD FAIR        AFTER
                                                                                                  NORTH RAMP UTILITIES PHASE   OPPORTUNITY       EXCLUSION OF
                                                                                                  2 (INCREMENT 1) PROJECT                        SOURCES
                                                                                                  SITE AT ANDERSEN AIR FORCE
                                                                                                  BASE, GUAM.
                               NAVFAC   N4019210D2800        500,000,000.00         520,188.00    MODIFICATION FOR PROJECT     SUBJECT TO        FULL AND OPEN          6
                                                                                                  P-100 NORTH RAMP             MULTIPLE          COMPETITION
                                                                                                  UTILITIES, INCREMENT 1; TO   AWARD FAIR        AFTER
                                                                                                  INCORPORATE WATER AND        OPPORTUNITY       EXCLUSION OF
                                                                                                  SEWER REQUIREMENTS.                            SOURCES
                                                                                                                                                                                Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                  Mechanisms Data (Section 2835(e)(1)(E))




        January 31, 2014
Guam Realignment Report
                           	        Section 2835(e)(1)(E)
                          	        Section 2835(e)(1)(E)

                                                                                  Amount
                                       Contract Number,                          Obligated/
                                       Grant, Agreement,                     Awarded January
                                          or Funding                         1 - September 30,                                 Method Used to                         Offers
                              Agency    Mechanism Title    Ceiling Amount           2013              Scope / Description       Solicit Offers    Offers Solicited   Received
                              NAVFAC   N4019210D2800        500,000,000.00          56,754.00    MODIFICATION FOR PROJECT      SUBJECT TO        FULL AND OPEN          6




January 31, 2014
                                                                                                 P-100 NORTH RAMP UTILITIES,   MULTIPLE          COMPETITION
                                                                                                 INCREMENT 1; TO PROVIDE       AWARD FAIR        AFTER
                                                                                                 SEWER DISTRIBUTION.           OPPORTUNITY       EXCLUSION OF
                                                                                                                                                 SOURCES
                              NAVFAC   N4019210D2800        500,000,000.00          61,474.00    MODIFICATION FOR PROJECT      SUBJECT TO        FULL AND OPEN          6




Guam Realignment Report
                                                                                                 P-100 NORTH RAMP UTILITIES,   MULTIPLE          COMPETITION
                                                                                                 INCREMENT 1; TO PROVIDE       AWARD FAIR        AFTER
                                                                                                 WATER AND SEWER               OPPORTUNITY       EXCLUSION OF
                                                                                                 DISTRIBUTION REROUTE                            SOURCES
                                                                                                 DUE TO COORDINATION
                                                                                                 WITH NORTH RAMP PARKING
                                                                                                                                                                                Mechanisms Data (Section 2835(e)(1)(E))




                                                                                                 PROJECT.
                              NAVFAC   N4019210D2800        500,000,000.00         376,255.00    MODIFICATION FOR PROJECT      SUBJECT TO        FULL AND OPEN          6
                                                                                                 P-100 NORTH RAMP UTILITIES,   MULTIPLE          COMPETITION
                                                                                                 INCREMENT 1; TO PROVIDE       AWARD FAIR        AFTER
                                                                                                 480V POWER SERVICE TO         OPPORTUNITY       EXCLUSION OF
                                                                                                 GENERATOR BUILDING AND                          SOURCES
                                                                                                 LIFT STATION NO. 1.




      40
                              NAVFAC   N4019210D2810        500,000,000.00         143,239.48    FY10 MILCON P1003             SUBJECT TO        FULL AND OPEN          6
                                                                                                                                                                                Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                                 MILITARY WORKING DOG          MULTIPLE          COMPETITION
                                                                                                 RELOCATION: MODIFICATION      AWARD FAIR        AFTER
                                                                                                 TO INCORPORATE FF&E.          OPPORTUNITY       EXCLUSION OF
                                                                                                                                                 SOURCES
                                                                                  Amount
                                        Contract Number,                         Obligated/
                                        Grant, Agreement,                    Awarded January
                                           or Funding                        1 - September 30,                                Method Used to                            Offers
                               Agency    Mechanism Title    Ceiling Amount          2013              Scope / Description      Solicit Offers       Offers Solicited   Received
                               NAVFAC   N4019211C8002           N/A                  (385.30)    COOPERATIVE AGREEMENT      RFP                 1                         1
                                                                                                 BETWEEN THE DEPT
                                                                                                 OF NAVY AND THE CNMI
                                                                                                 MUSEUM OF HISTORY
                                                                                                 AND CULTURE FOR THE
                                                                                                 PREPARATION/ACCESSIONING
                                                                                                 OF ARCHAEOLOGICAL
                                                                                                 MATERIALS COLLECTED
                                                                                                 DURING CONSTRUCTION AND
                                                                                                 OPERATIONS ASSOCIATED
                                                                                                 WITH THE GUAM/CNMI
                                                                                                 MILITARY RELOCATION ON
                                                                                                 THE ISLAND OF TINIAN:
                                                                                                 MODIFICATION TO DEOBLIGATE
                                                                                                 UNUSED FUNDS BASED ON
                                                                                                 ACTUAL COSTS INCURRED.




      41
                               NAVFAC   N4019213C3001           N/A                  1,165.00    BASE OPERATIONS SUPPORT      SUBJECT TO        SUBJECT TO                4
                                                                                                 (BOS) SERVICES CONTRACT,     MULTIPLE          MULTIPLE
                                                                                                 VARIOUS INSTALLATIONS,       AWARD FAIR        AWARD FAIR
                                                                                                 TERRITORY OF GUAM:           OPPORTUNITY       OPPORTUNITY
                                                                                                 MODIFICATION TO PROVIDE A
                                                                                                 DIG PERMIT/SOILS BORIMGS
                                                                                                 LOCATED AT NBG, BLDG 3169,
                                                                                                 TANGO WHARF (P204E TANGO
                                                                                                 WHARF IMPROVEMENTS).
                               NAVFAC   N4019213C3001           N/A                    (2.40)    BASE OPERATIONS SUPPORT      SUBJECT TO        SUBJECT TO                4
                                                                                                 (BOS) SERVICES CONTRACT,     MULTIPLE          MULTIPLE
                                                                                                 VARIOUS INSTALLATIONS,       AWARD FAIR        AWARD FAIR
                                                                                                 TERRITORY OF GUAM:           OPPORTUNITY       OPPORTUNITY
                                                                                                 MODIFICATIONS TO DE-
                                                                                                 OBLIGATE UNEARNED AWARD
                                                                                                 FEE FOR THE FORTH
                                                                                                 TRIMESTER OF THE FORTH
                                                                                                 AWARD OPTION PERIOD, 01
                                                                                                 JANUARY 2013 THROUGH 31
                                                                                                 DECEMBER 2013.
                                                                                                                                                                                  Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                    Mechanisms Data (Section 2835(e)(1)(E))




        January 31, 2014
Guam Realignment Report
                           	        Section 2835(e)(1)(E)
                          	        Section 2835(e)(1)(E)

                                                                                  Amount
                                       Contract Number,                          Obligated/
                                       Grant, Agreement,                     Awarded January
                                          or Funding                         1 - September 30,                                 Method Used to                         Offers
                              Agency    Mechanism Title    Ceiling Amount           2013              Scope / Description       Solicit Offers    Offers Solicited   Received
                              NAVFAC   N6274205C3501           N/A                 (5,241.62)    CONTRACT N62742-05-C-3501     NEGOTIATED        FULL AND OPEN          7




January 31, 2014
                                                                                                 BASE OPERATIONS (BOS)         PROPOSAL/         COMPETITION
                                                                                                 SERVICES, VARIOUS             QUOTE
                                                                                                 INSTALLATIONS, TERRITORY
                                                                                                 OF GUAM. THE PURPOSE
                                                                                                 OF THIS MODIFICATION IS TO




Guam Realignment Report
                                                                                                 DECREASE THE AWARD FEE
                                                                                                 FOR THE FOURTH OPTION
                                                                                                 PERIOD.
                              NAVFAC   N6274205C3501           N/A                 (1,934.03)    CONTRACT N62742-05-C-3501  NEGOTIATED           FULL AND OPEN          7
                                                                                                 BASE OPERATIONS (BOS)      PROPOSAL/            COMPETITION
                                                                                                 SERVICES, VARIOUS          QUOTE
                                                                                                                                                                                Mechanisms Data (Section 2835(e)(1)(E))




                                                                                                 INSTALLATIONS, TERRITORY
                                                                                                 OF GUAM. THE PURPOSE
                                                                                                 OF THIS MODIFICATION IS
                                                                                                 TO DEOBLIGATE AWARD FEE
                                                                                                 FUNDS FOR THE THIRD OPTION
                                                                                                 PERIOD.
                              NAVFAC   N6274208D0009        100,000,000.00         110,765.00    TASK ORDER MODIFICATION       SUBJECT TO        SUBJECT TO             4




      42
                                                                                                 FOR ADDITIONAL POST           MULTIPLE          MULTIPLE
                                                                                                                                                                                Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                                 CONSTRUCTION AWARD            AWARD FAIR        AWARD FAIR
                                                                                                 SERVICES. TASK ORDER          OPPORTUNITY       OPPORTUNITY
                                                                                                 0030 IS FOR JFY09 J-001
                                                                                                 GUAM UTILITIES AND SITE
                                                                                                 IMPROVEMENTS PH 1, APRA.
                              NAVFAC   N6274208D0009        100,000,000.00         256,634.00    TASK ORDER FOR SURGE GIS      ARCHITECT-   FULL AND OPEN               6
                                                                                                 SUPPORT SERVICES FOR THE      ENGINEER FAR COMPETITION
                                                                                                 PERIOD 9 SEP 2013 - 8 SEP     6.102
                                                                                                 2014.
                              NAVFAC   N6274209D0002        100,000,000.00         218,658.00    TASK ORDER TO PROVIDE         SUBJECT TO        SUBJECT TO             4
                                                                                                 POST CONSTRUCTION             MULTIPLE          MULTIPLE
                                                                                                 AWARD SERVICES (PCAS)         AWARD FAIR        AWARD FAIR
                                                                                                 FOR FY10 MCON P-204,          OPPORTUNITY       OPPORTUNITY
                                                                                                 WHARF IMPROVEMENTS
                                                                                                 (UNIFORM&TANGO) APRA
                                                                                                 PHASE 1 (SECONDARY PART E).
                                                                                    Amount
                                        Contract Number,                           Obligated/
                                        Grant, Agreement,                      Awarded January
                                           or Funding                          1 - September 30,                               Method Used to                         Offers
                               Agency    Mechanism Title    Ceiling Amount            2013              Scope / Description     Solicit Offers    Offers Solicited   Received
                               NAVFAC   N6274210D0003         50,000,000.00        (753,109.00)    MODIFICATION TO CANCEL      SUBJECT TO        FULL AND OPEN          3
                                                                                                   THE WORK ASSOCIATED         MULTIPLE          COMPETITION
                                                                                                   WITH THE PARTIAL 60% -      AWARD FAIR        AFTER
                                                                                                   100% DESIGN AND RELATED     OPPORTUNITY       EXCLUSION OF
                                                                                                   ENGINEERING SERVICES.                         SOURCES
                                                                                                   TASK ORDER 0002 PROVIDED
                                                                                                   FOR THE PREPARATION OF
                                                                                                   PLANS AND SPECIFICATIONS
                                                                                                   FOR GOVERNMENT OF JAPAN
                                                                                                   (GOJ) JFY10 FIRE STATION,
                                                                                                   FINEGAYAN, NAVAL BASE,
                                                                                                   GUAM.
                               NAVFAC   N6274210D0003         50,000,000.00        3,367,907.00    TASK ORDER TO PROVIDE       SUBJECT TO        FULL AND OPEN          6
                                                                                                   DESIGN AND ENGINEERING      MULTIPLE          COMPETITION
                                                                                                   SERVICES FOR THE            AWARD FAIR        AFTER
                                                                                                   PREPARATION OF A DBB        OPPORTUNITY       EXCLUSION OF




      43
                                                                                                   CONSTRUCTION PACKAGE FOR                      SOURCES
                                                                                                   JFY14 MCON PROJECT J001A
                                                                                                   NORTH RAMP UTILITIES AND
                                                                                                   SITE IMPROVEMENTS, NSA
                                                                                                   ANDERSEN AB GUAM.
                               NAVFAC   N6274210D1309       4,000,000,000.00      20,249,617.00    TASK ORDER FOR              SUBJECT TO        FULL AND OPEN          4
                                                                                                   CONSTRUCTION OF AN          MULTIPLE          COMPETITION
                                                                                                   AIRCRAFT RINSE FACILITY     AWARD FAIR
                                                                                                   WITH WATER RECYCLING        OPPORTUNITY
                                                                                                   SYSTEM, DIRECT FUELING
                                                                                                   STATIONS, AND TAXIWAYS TO
                                                                                                   CONNECT THE FACILITIES TO
                                                                                                   THE ADJACENT APRON AND
                                                                                                   TAXIWAY DELTA.
                               NAVFAC   N6274210D1309       4,000,000,000.00         968,985.57    P-204 APRA HARBOR WHARF     SUBJECT TO        FULL AND OPEN          7
                                                                                                   IMPROVEMENTS UNIFORM AND    MULTIPLE          COMPETITION
                                                                                                   TANGO (PARTS A&B), NAVAL    AWARD FAIR
                                                                                                   BASE GUAM: MODIFICATION     OPPORTUNITY
                                                                                                   TO INCORPORATE 31
                                                                                                   PNEUMATIC FENDERS INTO
                                                                                                   THE TASK ORDER.
                                                                                                                                                                                Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                  Mechanisms Data (Section 2835(e)(1)(E))




        January 31, 2014
Guam Realignment Report
                           	        Section 2835(e)(1)(E)
                          	        Section 2835(e)(1)(E)

                                                                                   Amount
                                       Contract Number,                           Obligated/
                                       Grant, Agreement,                      Awarded January
                                          or Funding                          1 - September 30,                                   Method Used to                         Offers
                              Agency    Mechanism Title    Ceiling Amount            2013              Scope / Description         Solicit Offers    Offers Solicited   Received
                              NAVFAC   N6274210D1309       4,000,000,000.00          14,412.79    P-204 APRA HARBOR WHARF         SUBJECT TO        FULL AND OPEN          6




January 31, 2014
                                                                                                  IMPROVEMENTS UNIFORM AND        MULTIPLE          COMPETITION
                                                                                                  TANGO (PARTS A&B), NAVAL        AWARD FAIR        AFTER
                                                                                                  BASE GUAM: MODIFICATION         OPPORTUNITY       EXCLUSION OF
                                                                                                  TO INCORPORATE FUNDING                            SOURCES
                                                                                                  FOR MOD 1T THAT WAS NOT




Guam Realignment Report
                                                                                                  INCLUDED DUE TO SYSTEM
                                                                                                  ERROR WHEN PROCESSING.
                              NAVFAC   N6274210D1309       4,000,000,000.00         117,816.48    P-204 APRA HARBOR WHARF         SUBJECT TO        FULL AND OPEN          6
                                                                                                  IMPROVEMENTS UNIFORM AND        MULTIPLE          COMPETITION
                                                                                                  TANGO (PARTS A&B), NAVAL        AWARD FAIR        AFTER
                                                                                                  BASE GUAM: MODIFICATION         OPPORTUNITY       EXCLUSION OF
                                                                                                                                                                                   Mechanisms Data (Section 2835(e)(1)(E))




                                                                                                  TO INCORPORATE THE                                SOURCES
                                                                                                  CHANGES TO INCLUDE THE
                                                                                                  RE-DESIGN AND INSTALLATION
                                                                                                  OF UTILITIES TIED TO THE J001
                                                                                                  PROJECT.
                              NAVFAC   N6274210D1309       4,000,000,000.00        (31,531.13)    P-204 APRA HARBOR WHARF         SUBJECT TO        FULL AND OPEN          7
                                                                                                  IMPROVEMENTS UNIFORM AND        MULTIPLE          COMPETITION




      44
                                                                                                  TANGO (PARTS A&B), NAVAL        AWARD FAIR
                                                                                                                                                                                   Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                                  BASE GUAM: MODIFICATION         OPPORTUNITY
                                                                                                  TO AWARD PC 00028 AND TO
                                                                                                  INCLUDE THE REA FOR TURTLE
                                                                                                  SIGHTINGS.
                              NAVFAC   N6274210D1312       4,000,000,000.00          35,942.65    MODIFICATION FOR PROJECT        SUBJECT TO        FULL AND OPEN          7
                                                                                                  P101, NORTH RAMP PARKING,       MULTIPLE          COMPETITION
                                                                                                  FOR ADDITIONAL CUTOVER          AWARD FAIR
                                                                                                  REQUIREMENTS.                   OPPORTUNITY
                              NAVFAC   N6274210D1312       4,000,000,000.00         (3,088.79)    MODIFICATION FOR PROJECT        SUBJECT TO        FULL AND OPEN          7
                                                                                                  P101, NORTH RAMP PARKING,       MULTIPLE          COMPETITION
                                                                                                  TO DELETE 4 FAILED FIBER        AWARD FAIR
                                                                                                  OPTIC STRANDS OUT OF THE        OPPORTUNITY
                                                                                                  144ST FO FROM MH-44 TO
                                                                                                  B-2616.
                                                                                  Amount
                                        Contract Number,                         Obligated/
                                        Grant, Agreement,                    Awarded January
                                           or Funding                        1 - September 30,                                  Method Used to                         Offers
                               Agency    Mechanism Title    Ceiling Amount          2013              Scope / Description        Solicit Offers    Offers Solicited   Received
                               NAVFAC   N6274211C0400           N/A                456,207.00    JFY09 MAMIZU J-001 UTILITIES   NEGOTIATED        FULL AND OPEN          5
                                                                                                 AND SITE IMPROVEMENTS,         PROPOSAL/         COMPETITION
                                                                                                 PHASE I, APRA HARBOR, NAVAL    QUOTE
                                                                                                 BASE GUAM: MODIFICATION
                                                                                                 TO INCORPORATE ADDITIONAL
                                                                                                 WORK TO UPGRADE POWER
                                                                                                 MOUND S2.
                               NAVFAC   N6274211C0400           N/A                637,773.00    JFY09 MAMIZU J-001 UTILITIES   NEGOTIATED        FULL AND OPEN         5
                                                                                                 AND SITE IMPROVEMENTS,         PROPOSAL/         COMPETITION
                                                                                                 PHASE I, APRA HARBOR, NAVAL    QUOTE
                                                                                                 BASE GUAM: MODIFICATION
                                                                                                 TO INCORPORATE CHANGES
                                                                                                 REQUIRED UNDER THE
                                                                                                 MARIANAS NAVY AND
                                                                                                 MARINE CORPS DESIGN AND
                                                                                                 CONSTRUCTION STANDARDS




      45
                                                                                                 (MDACS).
                               NAVFAC   N6274211C0400           N/A                (4,151.00)    JFY09 MAMIZU J-001 UTILITIES   NEGOTIATED         FULL AND OPEN        5
                                                                                                 AND SITE IMPROVEMENTS,         PROPOSAL/           COMPETITION
                                                                                                 PHASE I, APRA HARBOR, NAVAL    QUOTE
                                                                                                 BASE GUAM: MODIFICATION
                                                                                                 TO INCORPORATE ADDITIONAL
                                                                                                 WORK TO CHANGE THE
                                                                                                 REQUIREMENT FROM
                                                                                                 A GROUND MOUNTED
                                                                                                 PHOTO VOLTAIC SYSTEM
                                                                                                 WITH CONCRETE BLOCK
                                                                                                 ENCLOSURE TO BUILDING
                                                                                                 INTEGRATED PHOTO VOLTAIC
                                                                                                 SYSTEM.
                               NAVFAC   N6274211C0400           N/A                466,591.00    JFY09 MAMIZU J-001 UTILITIES   NEGOTIATED        FULL AND OPEN          5
                                                                                                 AND SITE IMPROVEMENTS,         PROPOSAL/         COMPETITION
                                                                                                 PHASE I, APRA HARBOR, NAVAL    QUOTE
                                                                                                 BASE GUAM: MODIFICATION
                                                                                                 TO PROVIDE 144 STRAND
                                                                                                 FROM B2616 TO VIP & CHANGE
                                                                                                 EXISTING 36 STRAND FIBER TO
                                                                                                 72 FROM BIF TO B34.
                                                                                                                                                                                 Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                   Mechanisms Data (Section 2835(e)(1)(E))




        January 31, 2014
Guam Realignment Report
                           	        Section 2835(e)(1)(E)
                          	        Section 2835(e)(1)(E)

                                                                                 Amount
                                       Contract Number,                         Obligated/
                                       Grant, Agreement,                    Awarded January
                                          or Funding                        1 - September 30,                                  Method Used to                         Offers
                              Agency    Mechanism Title    Ceiling Amount          2013              Scope / Description        Solicit Offers    Offers Solicited   Received
                              NAVFAC   N6274211C0400           N/A              1,548,989.00    JFY09 MAMIZU J-001 UTILITIES   NEGOTIATED        FULL AND OPEN          5




January 31, 2014
                                                                                                AND SITE IMPROVEMENTS,         PROPOSAL/         COMPETITION
                                                                                                PHASE I, APRA HARBOR, NAVAL    QUOTE
                                                                                                BASE GUAM: MODIFICATION
                                                                                                TO PROVIDE COMM DUCT
                                                                                                BANKS.




Guam Realignment Report
                              NAVFAC   N6274211C0400           N/A                106,853.00    JFY09 MAMIZU J-001 UTILITIES   NEGOTIATED         FULL AND OPEN        5
                                                                                                AND SITE IMPROVEMENTS,         PROPOSAL/           COMPETITION
                                                                                                PHASE I, APRA HARBOR, NAVAL    QUOTE
                                                                                                BASE GUAM: MODIFICATION
                                                                                                FOR REQUEST FOR EQUITABLE
                                                                                                ADJUSTMENT FOR MEC
                                                                                                                                                                                Mechanisms Data (Section 2835(e)(1)(E))




                                                                                                DELAYS.
                              NAVFAC   N6274211C0400           N/A                345,333.00    JFY09 MAMIZU J-001 UTILITIES   NEGOTIATED        FULL AND OPEN          5
                                                                                                AND SITE IMPROVEMENTS,         PROPOSAL/         COMPETITION
                                                                                                PHASE I, APRA HARBOR, NAVAL    QUOTE
                                                                                                BASE GUAM: MODIFICATION
                                                                                                TO PROVIDE THE REMOVAL OF
                                                                                                ASBESTOS PIPES LOCATED AT




      46
                                                                                                THE WHARVES.
                                                                                                                                                                                Section 5: Contracts, Grants, Agreements, or Other Funding




                              NAVFAC   N6274211C0400           N/A                187,571.00    JFY09 MAMIZU J-001 UTILITIES   NEGOTIATED        FULL AND OPEN          5
                                                                                                AND SITE IMPROVEMENTS,         PROPOSAL/         COMPETITION
                                                                                                PHASE I, APRA HARBOR, NAVAL    QUOTE
                                                                                                BASE GUAM: MODIFICATION
                                                                                                TO DEDUCT 1800LM SEWER
                                                                                                LINE, CONSTRUCT SEWAGE
                                                                                                DISPOSAL SYSTEM.
                              NAVFAC   N6274211C0400           N/A                272,887.00    JFY09 MAMIZU J-001 UTILITIES   NEGOTIATED        FULL AND OPEN          5
                                                                                                AND SITE IMPROVEMENTS,         PROPOSAL/         COMPETITION
                                                                                                PHASE I, APRA HARBOR, NAVAL    QUOTE
                                                                                                BASE GUAM: MODIFICATION
                                                                                                TO REVISE ENTRY CONTROL
                                                                                                FACILITY TO MEET MUTCD
                                                                                                REQUIREMENTS.
                                                                                   Amount
                                        Contract Number,                          Obligated/
                                        Grant, Agreement,                     Awarded January
                                           or Funding                         1 - September 30,                                  Method Used to                         Offers
                               Agency    Mechanism Title    Ceiling Amount           2013              Scope / Description        Solicit Offers    Offers Solicited   Received
                               NAVFAC   N6274211C0400           N/A               (572,189.00)    JFY09 MAMIZU J-001 UTILITIES NEGOTIATED          FULL AND OPEN          5
                                                                                                  AND SITE IMPROVEMENTS,       PROPOSAL/           COMPETITION
                                                                                                  PHASE I, APRA HARBOR, NAVAL QUOTE
                                                                                                  BASE GUAM: MODIFICATION
                                                                                                  TO INCORPORATE ELECTRICAL
                                                                                                  DUCT BANK CHANGES TO
                                                                                                  POWER MOUNDS V-5 TO V-7 ON
                                                                                                  VICTOR AND SIERRA WHARFS.
                               NAVFAC   N6274211C0400           N/A                  13,707.00    JFY09 MAMIZU J-001 UTILITIES   NEGOTIATED        FULL AND OPEN          5
                                                                                                  AND SITE IMPROVEMENTS,         PROPOSAL/         COMPETITION
                                                                                                  PHASE I, APRA HARBOR, NAVAL    QUOTE
                                                                                                  BASE GUAM: MODIFICATION
                                                                                                  TO INCORPORATE MEC
                                                                                                  CLEARING AND MAPPING.
                               NAVFAC   N6274211C0400           N/A                  61,621.00    JFY09 MAMIZU J-001 UTILITIES   NEGOTIATED        FULL AND OPEN          5
                                                                                                  AND SITE IMPROVEMENTS,         PROPOSAL/         COMPETITION
                                                                                                  PHASE I, APRA HARBOR, NAVAL    QUOTE
                                                                                                  BASE GUAM: MODIFICATION
                                                                                                  TO ACCOMMODATE




     47
                                                                                                  UNFORESEEN CONDITIONS
                                                                                                  FROM MAY TO OCT 2012.
                               NAVFAC   N6274211D1801         50,000,000.00         411,374.00    MODIFICATION TO CONDUCT        ARCHITECT-   FULL AND OPEN               5
                                                                                                  IN FILL SURVEY AND             ENGINEER FAR COMPETITION
                                                                                                  TESTING OF PROPOSED            6.102
                                                                                                  LFTRC FOOTPRINTS,
                                                                                                  ACCESS ROUTES, MAIN
                                                                                                  CONTONMENT ALTERNATIVES
                                                                                                  AND TO PREPARE DRAFT,
                                                                                                  PRE-FINAL AND FINAL
                                                                                                  REPORTS. TASK ORDER 0007
                                                                                                  IS FOR ARCHAEOLOGICAL
                                                                                                  SURVEYS AND CULTURAL
                                                                                                  RESOURCE STUDIES IN
                                                                                                  SUPPORT OF THE LIVE FIRE
                                                                                                  TRAINING RANGE COMPLEX
                                                                                                  (LFTRC) SUPPLEMENTAL
                                                                                                  ENVIRONMENTAL IMPACT
                                                                                                  STATEMENT (SEIS), NAVAL
                                                                                                  BASE, GUAM.
                                                                                                                                                                                  Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                    Mechanisms Data (Section 2835(e)(1)(E))




        January 31, 2014
Guam Realignment Report
                           	        Section 2835(e)(1)(E)
                          	        Section 2835(e)(1)(E)

                                                                                  Amount
                                       Contract Number,                          Obligated/
                                       Grant, Agreement,                     Awarded January
                                          or Funding                         1 - September 30,                                Method Used to                        Offers
                              Agency    Mechanism Title    Ceiling Amount           2013              Scope / Description      Solicit Offers   Offers Solicited   Received
                              NAVFAC   N6274211D1801         50,000,000.00          19,526.00    MODIFICATION TO UPDATE THE   ARCHITECT-        FULL AND OPEN        5




January 31, 2014
                                                                                                 LAND ACQUISITION PORTION     ENGINEER FAR       COMPETITION
                                                                                                 OF THE SOCIOECONOMIC         6.102
                                                                                                 STUDY REPORT USING
                                                                                                 THE SAME LIVE-FIRE
                                                                                                 TRAINING RANGE COMPLEX




Guam Realignment Report
                                                                                                 ALTERNATIVES USED IN THE
                                                                                                 DRAFT SEIS. TASK ORDER
                                                                                                 0011 IS FOR SOCIOECONOMIC
                                                                                                 STUDY FOR GUAM AND CNMI
                                                                                                 MILITARY RELOCATION SEIS.
                              NAVFAC   N6274211D1801         50,000,000.00       (261,477.00)    MODIFICATION TO REMOVE       ARCHITECT-   FULL AND OPEN              5
                                                                                                                                                                              Mechanisms Data (Section 2835(e)(1)(E))




                                                                                                 WORK ASSOCIATED WITH         ENGINEER FAR COMPETITION
                                                                                                 CARRYING FORWARD APRA        6.102
                                                                                                 HARBOR MAIN CANTONMENT,
                                                                                                 NCTS FINEGAYAN LFTRC,
                                                                                                 AND ROUTE 15B LFTRC
                                                                                                 ALTERNATIVES. TASK
                                                                                                 ORDER 11 IS FOR GUAM




      48
                                                                                                 AND CNMI MILITARY
                                                                                                 RELOCATION (2012 ROADMAP
                                                                                                                                                                              Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                                 ADJUSTMENT) SUPPLEMENTAL
                                                                                                 ENVIRONMENTAL IMPACT
                                                                                                 STATEMENT - DRAFT, FINAL
                                                                                                 AND RECORD OF DECISION.
                              NAVFAC   N6274211D1801         50,000,000.00       (110,497.00)    MODIFICATION TO REMOVE       ARCHITECT-   FULL AND OPEN              5
                                                                                                 ENCL (6) AND TO ADD A        ENGINEER FAR COMPETITION
                                                                                                 SUMMARY TABLE. TASK          6.102
                                                                                                 ORDER 11 IS FOR GUAM
                                                                                                 AND CNMI MILITARY
                                                                                                 RELOCATION (2012 ROADMAP
                                                                                                 ADJUSTMENT) SUPPLEMENTAL
                                                                                                 ENVIRONMENTAL IMPACT
                                                                                                 STATEMENT - DRAFT, FINAL
                                                                                                 AND RECORD OF DECISION.
                                                                                          Amount
                                            Contract Number,                             Obligated/
                                            Grant, Agreement,                        Awarded January
                                               or Funding                            1 - September 30,                                         Method Used to                         Offers
                               Agency        Mechanism Title      Ceiling Amount            2013                Scope / Description             Solicit Offers    Offers Solicited   Received
                               NAVFAC       N6274212D0003             5,000,000.00         228,713.00    TASK ORDER TO PROVIDE                 ARCHITECT-   FULL AND OPEN               5
                                                                                                         GEOTECHNICAL ENGINEERING              ENGINEER FAR COMPETITION
                                                                                                         TO PREPARE A DB RFP                   6.102
                                                                                                         CONSTRUCTION PACKAGE
                                                                                                         FOR PROJECT P-109 AIRCRAFT
                                                                                                         MAINT HANGAR, NORTH RAMP,
                                                                                                         AAFB GUAM
                                Subtotal                        $31,255,000,000.00     $29,296,255.14
                                                                                              Office of Economic Adjustment
                               OEA          GR0706-12-16-              850,000.00          550,000.00    Key Objectives: Capacity building     N/A               N/A                   N/A
                                            13-01                                                        within the Office of the Governor
                                                                                                         (advisory services contract for
                                                                                                         Environmental Advisory Services;
                                                                                                         Financial-Fiscal Advisory Services;
                                                                                                         Planning Advisory Services)




      49
                               OEA          GR0706-13-17               319,894.00          319,894.00    Key Objectives: Organizational &      N/A               N/A                   N/A
                                                                                                         Logistical Support to the Guam
                                                                                                         Governor’s Office
                               OEA          GR0706-13-18               550,000.00          550,000.00    Key Objectives: Planning activities   N/A               N/A                   N/A
                                                                                                         in response to the DoD Program
                                                                                                         Pivot; “Demarcation Study” for
                                                                                                         infrastructure initiatives SOW
                                 Subtotal                            $1,719,894.00      $1,419,894.00
                                 Total                          $31,256,719,894.00     $31,428,809.53
                           Source: Headquarters Marine Corps’ response to DoD OIG data call, 11/07/2013; Naval Facilities Enginnering Command’s response to DoD OIG data call, 12/02/2013; and
                           Office of Economic Adjustment’s response to DoD OIG data call, 10/25/2013.
                                                                                                                                                                                                 Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                                   Mechanisms Data (Section 2835(e)(1)(E))




        January 31, 2014
Guam Realignment Report
                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)


                          OTHER FEDERAL AGENCIES CONTRACTS/GRANTS/AGREEMENTS/OTHER FUNDING
                          MECHANISMS
                          From January 1, 2013, through September 30, 2013, DOT reported a total of 15 contracts, grants, agreements, or other funding mechanisms




January 31, 2014
                          totaling approximately $10.2 million. Table 10 identifies DOT contracts, grants, agreements, or other funding mechanisms that used amounts
                          appropriated or otherwise made available for military construction on Guam.

                                                          Table 10. Other Federal Agency Contracts, Grants, Agreements, or Other Funding




Guam Realignment Report
                                                                      Mechanisms Supporting the Guam Military Realignment
                                                                                           Amount Obligated                                     Method Used
                                        Contract, Grant, Agreement, or                        January 1 -                                        to Solicit         Offers       Offers
                              Agency    Other Funding Mechanism Title    Ceiling Amount   September 30, 2013       Scope / Description             Offers          Solicited    Received
                              DOT      MARAD - Contract DTMA1D10002      $50,000,000.00      $6,707,394.17     Program Management               Full and Open   Unlimited          5
                                                                                                                                                                                           Mechanisms Data (Section 2835(e)(1)(E))




                              DOT      DOC Economic Development            2,000,000.00               0.00     Preliminary Design &
                                       Agency (MARAD)                                                          Engineering Services for the
                                                                                                               Port of Guam
                              DOT      FHWA - Grant to Government          3,696,610.00              $0.00     Prepare NEPA Document            ID/IQ RFP       Base Contract      5
                                       of Guam GU-NH-IPMS(002)                                                 and Coordination between                         - Open
                                       Islandwide Program Management                                           Government of Guam DPW,                          Advertisement
                                       Services (funds from USMC)                                              FHWA, and DOD




      50
                                       DTFH6109X50001
                                                                                                                                                                                           Section 5: Contracts, Grants, Agreements, or Other Funding




                                       (Advice/Mod #1)
                              DOT      FHWA - Grant to Government of       1,595,940.00               0.00     Prepare NEPA Document            ID/IQ RFP       Base Contract      5
                                       Guam GU-NH-IPMS(002) Island                                             and Coordination between                         - Open
                                       wide Program Management                                                 Government of Guam DPW,                          Advertisement
                                       Services (funds from USMC)                                              FHWA, and DOD
                                       DTFH6109X50001
                                       (Advice/Mod #3)
                              DOT      FHWA - Grant to Government of          80,000.00               0.00     Prepare NEPA Document            ID/IQ RFP       Base Contract      5
                                       Guam GU-NH-IPMS(002) Island                                             and Coordination between                         - Open
                                       wide Program Management                                                 Government of Guam DPW,                          Advertisement
                                       Services (funds from BUMED)                                             FHWA, and DOD
                                       DTFH6109X50001
                                       (Advice/Mod #2)
                              DOT      FHWA - Grant to Government of       3,030,432.25         128,602.62     Prepare Design/Build             ID/IQ RFP       Base Contract      5
                                       Guam GU-NH-IPMS(002) Island                                             request for Qualifications for                   - Open
                                       wide Program Management                                                 Proposals for FY2010 DAR                         Advertisement
                                       Services                                                                projects, Route 1 east of
                                       27XX66IPMS00273P0                                                       Route 4, Route 11/1, Route
                                       ($2,702,983.38)                                                         11, Route 1/8, and Agana
                                       27XX66IPMS00273V0                                                       Bridge
                                       ($327,448.87))
                                                                                             Amount Obligated                                   Method Used
                                          Contract, Grant, Agreement, or                        January 1 -                                      to Solicit      Offers        Offers
                               Agency     Other Funding Mechanism Title    Ceiling Amount   September 30, 2013       Scope / Description           Offers       Solicited     Received
                               DOT       FHWA - Grant to Government of         570,740.00               0.00     Consultant for Route 1/3       RFP           Open               3
                                         Guam                                                                    Intersection                                 Advertisement
                                         GU-NH-0001(125)
                                         27XX66000112573P0
                               DOT       FHWA - Grant to Government of       2,182,765.00               0.00     Consultant for Route 3 from    RFP           Open               3
                                         Guam                                                                    Route 28 to Chalan Kareta                    Advertisement
                                         GU-NH-0003(105)
                                         27XX66000310573V0
                               DOT        FHWA - Grant to Government of     11,925,113.91         435,300.00     Construction for Route 1    RFP              Open               3
                                         Guam                                                                    Agana Bridges and Route 1/8                  Advertisement
                                         GU-DAR-TI01(001)                                                        Intersection
                                         27XX66TI0173V0
                               DOT       FHWA - Grant to Government of      14,016,298.99               0.00     Construction for Route 11      RFP           Open               3
                                         Guam                                                                    and Route 1/11 Intersection                  Advertisement
                                         GU-DAR-0011(008)
                                         27XX66001100873V0
                               DOT       FHWA - Grant to Government of       2,517,164.58         400,000.00     Construction Management        ID/IQ RFP     Base Contract      5
                                         Guam                                                                    for Route 1 Agana Bridges,                   - Open
                                         GU-NH-PCMS(001)                                                         Route 1/8 Intersection,                      Advertisement
                                         27XX66PCMS00173V0                                                       Route 11 and Route 1/11




      51
                                                                                                                 Intersection
                               DOT       FHWA - Grant to Government of       2,409,644.90       2,224,644.90     Professional Services for      RFP           Base Contract      3
                                         Guam                                                                    Archaeological Support                       - Open
                                         GU-NH-PSAS(001)                                                                                                      Advertisement
                               DOT       FHWA - Grant to Government of         299,485.00         299,485.00     Technical Support Services     RFP           Base Contract      1
                                         Guam                                                                    Island-wide Quality                          - Open
                                         GU-NH-TSIS(002)                                                         Assurance Testing                            Advertisement
                               DOT       FHWA - Grant to Government of          33,120.00               0.00     Technical Support Services     RFP           Base Contract      2
                                         Guam                                                                    Island-wide Geotechnical                     - Open
                                         GU-NH-TSIS(001)                                                         Engineering                                  Advertisement
                               DOT       FHWA - Grant to Government of       1,675,353.47               0.00     Prepare Traffic Analysis for   RFP           Base Contract      1
                                         Guam                                                                    SEIS                                         - Open
                                         GU-NH-IPMS(003)                                                                                                      Advertisement
                                         Island wide Program Management
                                         Services***
                                Total                                      $96,032,668.10     $10,195,426.69
                           Sources: DOT’s response to DoD OIG data call, 11/15/2013.
                                                                                                                                                                                         Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                           Mechanisms Data (Section 2835(e)(1)(E))




        January 31, 2014
Guam Realignment Report
                           	            Section 2835(e)(1)(E)
             Appendix. Acronyms


             Acronyms
             DOI		        Department of the Interior
             DOT		        Department of Transportation
             EPA		        Environmental Protection Agency
             GOJ 		       Government of Japan
             ICG 		       Interagency Coordination Group of Inspectors General for Guam Realignment
             JGPO	 	      Joint Guam Program Office
             NDAA		       National Defense Authorization Act
             OIG 		       Office of Inspector General
	APPENDIX




            Guam Realignment Report
            January 31, 2014                                  52
             Whistleblower Protection
            U.S. Department of Defense
   The Whistleblower Protection Enhancement Act of 2012 requires the
 Inspector General to designate a Whistleblower Protection Ombudsman
to educate agency employees about prohibitions on retaliation, and rights
and remedies against retaliation for protected disclosures. The designated
ombudsman is the DoD IG Director for Whistleblowing & Transparency.
For more information on your rights and remedies against retaliation, go
                    to the Whistleblower webpage at
                www.dodig.mil/programs/whistleblower.




For more information about DoD IG reports
      or activities, please contact us:
                         Congressional Liaison
               Congressional@dodig.mil; 703.604.8324
                              DoD Hotline
                            1.800.424.9098
                             Media Contact
               Public.Affairs@dodig.mil; 703.604.8324
                            Monthly Update
                 dodigconnect-request@listserve.com
                          Reports Mailing List
                 dodig_report-request@listserve.com
                                 Twitter
                          twitter.com/DoD_IG
 Department of Defense Office of Inspector General
             4800 Mark Center Drive
           Alexandria, VA 22350-1500

Department of the Interior Office of Inspector General
       1849 C Street, N.W. Mail Stop 4428
             Washington, D.C. 20240

  The report is available online at: www.dodig.mil
